Case: 19-3959

Document 6-2

Filed 02/14/2020

Page: 1

No. 19-3959

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

ANGELIQUE BANKSTON,

)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

Feb 14, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: DONALD, Circuit Judge.

Angelique Bankston, a federal prisoner, applies through counsel for a certificate of
appealability to appeal the district court’s judgment denying her motion to vacate her sentence,
filed under 28 IJ.S.C. § 2255.
In 2013, a jury convicted Bankston of five counts of bank fraud, three counts of conspiracy,
eight counts of mail fraud, wire fraud, making false statements, money laundering, and four counts
A.

of aggravated identity theft:. The convictions were based on schemes in which Bankston stole the
identities of people, placed holds on their mail and collected it, used the identifications to take out
loans, opened bank accounts with forged cheeky and withdrew money, obtained credit cards^and
made purchases with them, filed false lax returns, and made claims for unemployment benefits.
V
'
V
On direct appeal, we vacated the making-f'alse-statements conviction and remanded the
matter for resentencing. United States v. Bankston, 820 F.3d 215 (6t.h Cir. 2016). Resentencing
took place before a different district judge because the original district judge had retired. Bankston
was sentenced to 18^months of imprisonment, seventeen months longer than the original sentence.
We affirmed the new sentence. United States v. Bankston, 711 F. App’x 307 (6th Cir. 2017).

A'J.

(2 of 6)

Case: 19-3959

Docurneril 6-2

Filed: 02/14/2020

Page: 2

(3 of 6)

No. 19-3959
-2lii this motion to vacate, Bankston argued that 1) the prosecution withheld evidence of a
separate state grand jury proceeding; 2) the affidavit in support of the search warrant falsely stated
that it relied on. evidence from a federal grand jury subpoena rather than a state grand jury;
3) counsel failed to conduct adequate pretrial investigation; 4) counsel failed to challenge the
composition of the jury venire; 5) the prosecution introduced perjured evidence; 6) counsel failed
to present mitigating evidence at the original sentencing hearing; 7) counsel on resentencing failed
to object to the amount-of-loss calculation, the consecutive sentences for aggravated identity theft,
and the enhancement for sophisticated money laundering; and 8) appellate counsel rendered
ineffective assistance. The district court determined that the claims were either procedurally
defaulted or meritless and denied the motion. Bankston reasserts seven of her claims in her motion
for a certificate of appealability, abandoning her claim of the introduction of perjured evidence.
To obtain a certificate of appealability, Bankstonmust demonstrate that “reasonable jurists
would find the district court’s assessment of the constitutional claims debatable or wrong.” MillerEl v. Cockrell, 537 U.S. 322, 338 (2003) (quoting Slack v. McDaniel, 529 U,S. 473, 484 (2000)).
“[A] COA does not require a showing that the appeal will succeed,” id. at 337; it is sufficient for
a petitioner to demonstrate that “the issues presented are adequate to deserve encouragement to
proceed further,” id. at 327 (citing Slack, 529 U.S. at 484). For claims that the district court denied
on procedural grounds, Bankstonmust show that reasonable jurists would find it debatable whether
the petition stated a valid claim of the denial of a constitutional right and that reasonable jurists
would find it debatable whether the district court was incorrect in its procedural ruling. See Slack,
529 U.S. 473,484-85 (2GOO).
In her first claim, Bankston argued that the prosecution withheld evidence that there bad
been a separate local investigation of her crimes. The district court found this claim procedurally
defaulted. Bankston argues that she did not discover the facts behind this claim until after her
conviction became final, constituting cause for her procedural default. However, it is apparent
from our original opinion that Bankston was aware that there was a separate state investigation of
her activities, as she was questioned by both local and federal officers. See Bankston, 820 F.3d at

.~v

Case: 19-3959

Document: 6-2

Filed: 02/14/2020

Page: 3

No. 19-3959
-3 221. The district court also found that Bankston did not show that any prejudice resulted because
her claim that the state grand jury proceedings might contain exculpatory evidence was purely
conjectural. Reasonable jurists therefore could not debate whether this issue states a valid claim
of the denial of a constitutional right and whether the district court was correct in its procedural
ruling.
In her second claim, Bankston alleged that her Fourlh Amendment rights were violated
because the government relied on false information to obtain a search warrant to search her home.
Specifically, Bankston asserted that the warrant incorrectly stated that it relied on evidence
procured from a federal grand jury proceeding when it actually relied on information from a state
grand jury proceeding. The district court found that this claim also was procedurally defaulted
because Bankston did not raise it on direct appeal. Further, the district court concluded that
Bankston failed to establish cause or prejudice that would excuse the procedural default.
Moreover, reasonable jurists could not disagree with the conclusion that a Fourth Amendment
claim is not properly raised in a motion to vacate a sentence. See Ray v. United States, 721 F.3d
758,762 (6th Cir. 2C13).
In her third claim, Bankston argued that her pretrial counsel was ineffective in failing to
conducl an adequate investigation. To establish ineffective assistance of counsel, a defendant must
show deficient performance and resulting prejudice. Strickland v. Washington, 466 U.S. 668,687
(1984). Bankston failed to specify any actual records or witnesses that would have aided her case,
thus failing to show that any prejudice resulted from the alleged ineffective assistance of counsel.
On. appeal, Bankston argues that ‘"despite the existence of a psychiatric evaluation, [appellate
counsel] chose not to present expert testimony regarding psychological conditions that would have
supported [counsel’s] legal analysis of the § 3553(a) factors." Beyond this conclusory assertion,
Bankston fails to explain how—or if—this alleged psychological report and an expert witness
would have benefited her. Thus, jurists of reason could not disagree with the district court’s
finding that this conclusory allegation failed to state a claim of ineffective assistance of counsel.
See Wogenstahi v. Mitchell, 668 F.3d 307, 335 (6th Cir. 2012).

(4 of 6)

Case: 19-3959

Document 6-2

Filed: 02/14/2020

Page: 4

No. 19-3959

-4Nexl, Bankston argued dial counsel was ineffective in failing to challenge the racial
representation in the jury venire. The record showed that Bankston moved to dismiss her counsel
and proceed pro se before questioning of the jurors commenced. Most of her argument on this
claim, however, concerned the court’s denial of her objection to a peremptory strike of an African
American juror. Counsel could not be faulted for any error that occurred after Bankston had been
permitted to represent herself. She also argues that counsel should have challenged the racial
composition of the jury venire before voir dire began. However, such a claim would have to be
based on systemic exclusions in the jury selection process in the United States District Court of
the Northern District of Ohio, Eastern Division, not just the composition of her particular venire.
See Durett v, Missouri, 439 U.S. 357, 364 (1979). She made no showing on this point, and
reasonable jurists therefore could not disagree with the district court’s resolution of this claim.
Bankston also argued that counsel was ineffective in her first sentencing proceeding for
failing to submit any mitigating evidence. Bankston did not identify any witnesses or evidence
that should have been presented, thus failing to show that the alleged ineffective assistance
prejudiced her sentencing proceedings. Reasonable jurists could not disagree with the district
court’s holding that this conclusory allegation did not state a claim of ineffective assistance of
counsel. See Wogenstahl, 668 F 3d at 335. Bankston also argued that the counsel who represented
her during the second sentencing proceeding failed to object to the calculation of loss, the
consecutive sentences for the aggravated identity theft convictions, and the enhancement for
sophisticated money laundering. The district court rejected this claim because the record showed
that counsel did make these objections, although unsuccessfully, in the sentencing memorandum,
and in the transcript of the sentencing proceeding. Furthermore, Bankston alleged at the second
sentencing hearing that she had more information about the amount of loss and was granted a
continuance to the next day to present it, but failed to do so. The district court also noted that the
amount of loss in dispute was irrelevant because the guidelines offense level had been lowered
since the first sentencing to Bankston’s benefit. Finally, Bankston argued that counsel on appeal
was ineffective for failing to raise some of the issues presented here. Reasonable jurists could not

(5 of 6)

Case: 19-3959

Document 6-2

Filed: 02/14/2020

Page: 5

No. 19-3959
-5disagree with the district court’s conclusion that appellate counsel did not have to raise every
conceivable issue in order to be effective. See Coleman v. Mitchell, 268 F.3d 417, 430-31 (6th
Cir. 2001).

In summary, Bankston failed to make a showing that her various counsel's

performances were deficient, much less that any alleged deficiencies prejudiced the result of her
trial. See Ross v. United States, 339 F.3d 483, 491 (6th Cir. 2003).
For the foregoing reasons, the application for a certificate of appealability is DENIED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(6 of 6)

Case: l:13-cr-00166-DCN Doc#: 322 Filed: 08/05/19 1 of 13. PagelD#:5506

IN THE UNITED STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF OHIO EASTERN DIVISION
ANGELIQUE BANKSTON,
Defendant-Petitioner,
v.
UNITED STATES OF AMERICA,
Plaintiff-Respondent. ;

)
)
■

CASE NO. 1:13 CR 166

)

)
)
)

JUDGE DONALD C. NUGENT

)

MEMORANDUM AND OPINION

)
)

Defendant filed a Motion to Vacate, Set Aside, or Correct Sentence pursuant to Title 28
United States Code § 2255. For the reasons below, the Defendant’s motion is denied.
I.

Procedural History
On November 21, 2013, a jury found Petitioner, Ms. Bankston, guilty of Counts 1-23 of

the second superceding indictment, including: three counts of conspiracy to commit bank fraud
and money laundering (Counts 1, 15, and 17) in violation of 18 U.S.C. § 371; five counts of
bank fraud (Counts 2-5 and 7) in violation of 18 U.S.C. § 1344; eight counts of mail fraud
(Counts 10-14, 18s, 20-21) in violation of 18 U.S.C. § 1341; one count of wire fraud (Count 16)
in violation of 18 U.S.C. 1343; and one count of money laundering (Count 9) in violation of 18
U.S.C. §§ 1956(a)(1)(B) and 1956(a)(1). (ECF #150). She was sentenced to a total of 168
months imprisonment, with $75,554.17 in restitution, and three years of supervised release.
Ms. Bankston filed a timely appeal from the judgment of conviction and submitted four
arguments to support her appeal. Ms. Bankston argued that her conviction should be overturned
because (1) she had not validly waived her right to counsel at trial; (2) she should not have been
charged with making false statements under 18 U.S.C. §1001 (Count 23 of the indictment); (3)
her constitutional rights were violated at trial by judicial bias, prosecutorial misconduct and
\ -

Case: l:13-cr-00166-DCN Doc #: 322 Filed: 08/05/19 2 of 13. PagelD#:5507

ineffective assistance of counsel, all related to the false statements count; and, (4) the evidence
was insufficient to support her conviction for Counts 16 (wire fraud) and 18 (mail fraud). United
Slates v. Bankston, 820 F.3d 215, 220,222 (6th Cir. 2016).
Ms. Bankston also appealed her sentence alleging that the Court (1) incorrectly
calculated her base offense level as 27 when it was previously determined to be 25; (2)
miscalculated her criminal history category as a VI rather than V; and (3) failed to address
factual discrepancies regarding the aggregate amount of loss under § 2B1.1(b)(1). Id. at 236. On
appeal, Count 23 was vacated pursuant to Subsection (b) of 18 U.S.C. § 1001(b) as false
statement prohibition “does not apply to a party to a judicial proceeding, or that party’s counsel,
for statements, representations, writing or documents submitted by such party or counsel to a
judge, or magistrate in that proceeding.” The Court of Appeals did not accept her argument for
vacating the convictions for the other counts. However, the Court did agree that Ms. Bankston
“needed to be resentenced on all but the aggravated identity theft counts.” Bankston, at 236. The
Court of Appeals gave the following reasons for their decision: (1) the trial court had earlier
noted that Ms. Bankston’s offense level should be 25 but later sentenced her based on a level of
27; (2) the trial court determined Ms. Bankston fell within a criminal history category of VI
rather than the previously determined category of V without providing any explanation; and (3)
the trial court provided no explanation as to how the Government’s loss amount was correct. Id.
The Court then remanded the case for resentencing. (ECF #312, p. 3).
On October 25, 2016, this Court held a re-sentencing hearing and sentenced Ms.
Bankston to 185 months of imprisonment, to be followed by a three year term of supervised
release. (ECF #312, p. 4). Ms. Bankston again filed a timely appeal of her sentence and on
October 11, 2017, the 6th Circuit Court of Appeals affirmed her conviction and sentence. United

2

]

Case: l:13-cr-00166-DCN Doc #: 322 Filed: 08/05/19 3 of 13. Page ID #: 5508

States v. Bankston, 711 Fed. Appx. 307 (6th Cir. 2017). Ms. Bankston then filed a timely
Petition for Writ of Certiorari with the United States Supreme Court, which was denied on May
29,2018. (EOF #312, p. 4). Upon said denial, Ms. Bankston filed a timely Motion pursuant to 28
U.S.C. § 2255(f) alleging eight grounds for relief which are as follows:
Bankston was denied due process because the Government failed to disclose^

(2))Ms. Bankston’s rights under the Fourth Amendment were violated by the
Government’s reliance on false information to obtain a warrant to search her
residence (Id., p. 12);
(3) Ms. Bankston’s Sixth Amendment right to effective assistance of counsel was
violated (Id., p. 16);
(4) Trial counsel rendered ineffective assistance by failing to challenge the composition
of the jury venire after the Government used peremptory challenges to exclude
minorities contrary to the Batson v. Kentucky mandate (Id., p. 17);

w

ovemment obtained Ms. Bankston’s conviction by knowingly soliciting false
testimony and introducing evidence in violation of her constitutional rights (Id., p.
22);
(6) Ms. Bankston’s Sixth Amendment right to effective assistance of counsel was
violated during her initial sentencing hearing (Id., p. 24);
(7) Ms. Bankston's Sixth Amendment right to effective assistance of counsel was
violated during the preparation for her resentencing (Id., p. 29); and
(8) Resentencing counsel failed to investigate or consult with appropriate experts
regarding loss calculations. (Id., p. 36).

3

Case: l:13-cr-00166-DCN Doc #: 322 Filed: 08/05/19 4 of 13. PagelD #: 5509

II. Law and Analysis
a. Limitations to a § 2255 Motion to Vacate
A petitioner that moves to vacate, set aside, or correct a sentence pursuant to 28 U.S.C. §
2255 must demonstrate that either: (1) the sentence was imposed in violation of the Constitution
or laws of the United States; (2) the court was without jurisdiction to impose the sentence; (3)
the sentence was in excess of the maximum authorized by the law; or (4) it is otherwise subject
to collateral attack. A court may grant relief under § 2255 only if a petitioner has demonstrated
“a fundamental defect which inherently results in a complete miscarriage of justice.” See 28
U.S.C. § 2255. The burden of showing such violation is on the petitioner. Jones v. Russell, 396
F.2d 797 (6th Cir. 1968).
Additionally, a § 2255 claim cannot be used as a second opportunity to review issues that
could have been, but were not, raised on direct appeal. One exception to this, however, is if the
petitioner can demonstrate “cause to excuse [her] failure to appeal the issue and actual
prejudice.” Ratliff v. United States, 999 F.2d 1023, 1025 (6th Cir. 1993). To show actual
prejudice, a petitioner must show that the errors “worked to [her] actual and substantial
disadvantage.” United States v. Frady, 456 U.S. 152,167-68 (1982).
b. Failure to Raise a Claim at Trial or on Direct Appeal
I
All of the alleged errors in Grounds One, Two, and Five, could have been raised on direct
appeal. Ms. Bankston fails to demonstrate cause and prejudice as^ required in order to be
considered now. Ground One alleges Ms. Bankston was denied due process because the
Government failed to disclose potentially exculpatory Brady material. (ECF # 312, p. 6). Ground
Two alleges Ms. Bankston’s Fourth Amendment rights were violated by the Government’s
reliance on false information to obtain a warrant to search her home. (Id., p. 12). Ground Five

4

Case: l:13-cr-00166-DCN Doc #: 322 Filed: 08/05/19 5 of 13. PagelD#:5510

claims the Government obtained Ms. Bankston’s conviction by knowingly soliciting false
testimony and introducing evidence in violation of her constitutional rights. (Id., p. 22).
i. Ground One - Failure to Disclose or Request Potential Brady Material
Ms. Bankston alleges that both her attorney, Ms. Schuster, and the Government failed to
request or disclose potentially exculpatory Brady material generated by a pending case against
Ms. Bankston in state court. Ms. Bankston fails to show any cause or prejudice relating to this
Count as the “outcome of the parallel investigation has no effect or bearing on her federal
prosecution.” (ECF #319, p. 16). Further, Ms. Bankston fails to demonstrate how the missing

c\ 4

pages from the subpoena issued to AT&T by Cuyahoga County prejudices this case in any way.
pMs. Bankston makes only generalized statements regarding the evidence that may arise from
I these pages rather than showing specific prejudice that worked to her disadvantage. Therefore,
Ground One has not satisfied the threshold required to warrant its consideration on a collateral
^ppeal and is therefore waived. ^
ii.

^

Ground Two — Violation of Fourth Amendment Right

Ms. Bankston claims her rights under the Fourth Amendment were violated by the
Government’s reliance on false information to obtain a warrant to search her residence. (ECF
#312, p. 12). Fourth Amendment claims are waived when the petitioner had a “fall and fair”
opportunity to raise the claim on direct appeal. Stone v. Powell, 428 U.S. 465, 494 (1976); see
also Ray v. United States, 721 F.3d 758, 762 (6th Cir. 2013) (“free-standing Fourth Amendment
claims cannot be raised in collateral proceedings under either § 2254 or § 2255, [but] the merits
of a Fourth Amendment claim still must be assessed when a claim of ineffective assistance of
counsel is founded on incompetent representation with respect to a Fourth Amendment issue.”)
Ms. Bankston waived this claim as she failed to raise in on direct appeal and has not proven
\

5

Case: l:13-cr-00166-DCN Doc #: 322 Filed: 08/05/19 6 of 13. PagelD#:5511

ineffective assistance of counsel in connection with her Fourth Amendment rights as discussed
below.*^^?
iii. Ground Five - Obtaining Conviction via False Testimony and
Introducing Evidence in Violation of Ms. Bankston’s Constitutional
Rights
Ground Five alleges that the Government obtained Ms. Bankston’s conviction by knowingly
soliciting false testimony and introducing evidence in violation of her constitutional rights (ECF
#312, p. 22). Ground Five also refers to the subpoena issued by Cuyahoga County to AT&T. Ms.
Bankston claims that “a significant portion of the false testimony at trial stemmed from the use
*

of a Cuyahoga County grand jury subpoena and the false reference to a federal grand jury
subpoena to secure the search warrant.” (ECF #319, p. 20). Ms. Bankston is unable to show that
the parallel investigation in state court has any effect or bearing on this case. Furthermore, Ms.
Bankston waived her right to raise this claim by failing to raise the claim on direct appeal.
c. Establishing Ineffective Assistance of Counsel on a § 2255 Motion
To prove ineffective assistance of counsel, a petitioner must show both inadequate
performance by counsel and prejudice resulting from that inadequate performance. Strickland v.
Washington, 466 U.S. 668, 687 (1984); Ross v. United States, 339 F.3d 483, 491-92 (6th Cir.
2003). In Strickland, the United States Supreme Court formulated the following test to determine
whether a petitioner’s ineffective assistance of counsel claim has merit:
First, the defendant must show that counsel’s performance was deficient. This
requires showing that counsel made errors so serious that counsel was not
functioning as the ‘counsel’ guaranteed the defendant by the Sixth Amendment.
Second, the defendant must show that the deficient performance prejudiced the
defense. This requires showing that counsel’s errors were so serious as to deprive
the defendant of a fair trial, a trial whose result is reliable. Unless a defendant
makes both showings, it cannot be said that the conviction . . . resulted from a
breakdown in the adversary process that renders the result unreliable.

6

Case: l:13-cr-00166-DCN Doc #: 322 Filed: 08/05/19 7 of 13. PagelD #: 5512

See Id. at 687. The court continued to note that judicial scrutiny of counsel’s performance “must
be highly deferential.” Id. at 689. It is the petitioner’s responsibility to overcome the
presumption of her defense counsel’s competence by proving, not simply alleging, that counsel’s
performance was unreasonable in relation to professional norms. Kimmelman v. Morrison, All
U.S. 365, 384 (1986); Cobb v. Perini, 832 F.2d 342, 347 (6,h Cir. 1987). In Lewis v. Alexander,
11 F.3d 1349, 1353-54 (6th Cir. 1993), the court noted that “counsel may exercise his
professional judgment with respect to the viability of certain defenses and evidentiary matters
without running afoul of the Sixth Amendment.”
For a hearing on a § 2255 motion to be held, the petitioner must submit a “detailed and
specific affidavit which shows that the petitioner has actual proof of the allegations going
beyond mere unsupported assertions.” Barry v. United States, 528 F.2d 1094, 1101 (7th Cir.
1976). Further, petitioner is not entitled to a hearing if her affidavit makes only a conclusory
claim without alleging a factual question of a violation. Turner v. United States, 183 F.3d 474,
477-78 (6th Cir. 1999). However, it is ultimately the Court’s discretion to determine whether to
admit and receive such affidavits as evidence. Bofford v. Marshall, 751 F.2d 845, 853 (6th Cir.
1985) (citations omitted).
Petitioner must also establish prejudice as a result of the alleged ineffective assistance of
counsel. To do so, petitioner must demonstrate a reasonable probability that, but for her
attorney’s errors, the proceedings would have produced a different result. Ross, 339 F.3d at 492
(citing Strickland, 466 U.S. at 694). A professionally unreasonable error alone is not sufficient if
the error had no effect on the judgment. Id. at 691. Rather, an error must be “prejudicial to the
defense in order to constitute ineffective assistance of counsel under the Constitution.” Id. at
692. Ms. Bankston alleged 5 grounds in support of her ineffective assistance of counsel claims

7

Case: l:13-cr-00166-DCN Doc #: 322 Filed: 08/05/19 8 of 13. PagelD #: 5513

citing her counsel’s failure to (1) conduct pre-trial investigation (Ground Three); (2) challenge
the composition of the jury venire (Ground Four); (3) present evidence dr call witnesses during
the initial sentencing (Ground Six); (4) prepare adequately for the resentencing hearing (Ground
Seven); and (5) raise several claims during the direct appeal (Ground Eight). (ECF # 319, p. 10).
Ms. Bankston was afforded effective assistance of counsel for the reasons discussed below.
i. Ground Three - Pre-Trial Investigation
Ms. Bankston claims her counsel failed to conduct pre-trial investigation and therefore
violated her Sixth Amendment right to effective assistance of counsel. More specifically, Ms.
Bankston alleges that her counsel failed to retain a private investigator and to thoroughly
investigate “issues of guilt and innocence.” (ECF # 319, p. 10). To support this claim, Ms.
Bankston references “critical records” that were not reviewed and “numerous witnesses with
C

V'

crucial information” that were not interviewed. (ECF # 312, p. 16-7). Ms. Bankston fails,
however, to identify any specific “critical records” or any “witnesses with crucial information.”
(Id.) She also fails to demonstrate how the absence of such information prejudiced her case. (Id.)
Without citing specific records or the “critical information” known by specific witnesses, Ms.
Bankston has made only conclusory statements and is unable to prove how this error prejudiced
her case. See O’Malley v. United States, 285 F.2d 733, 735 (6th Cir. 1961) (stating
“[cjonclusions, not substantiated by allegations of fact with some probability of verity, are not
sufficient to warrant a hearing,” much less relief); Short v. United States, 504 F.2d 63, 65 (6th
Cir. 1974) (holding that when “claims are stated in the form of conclusions without any
allegations of fact in support thereof,” a § 2255 motion is “legally insufficient”); Wogenstahl v.
Mitchell, 668 F.3d 307, 335 (6th Cir. 2012) (noting “[mjerejy conclusory allegations of
ineffective assistance are insufficient to state a constitutional claim.”). Therefore, Ms.

8

Case: l:13-cr-00166-DCN Doc #: 322 Filed: 08/05/19 9 of 13. PagelD #: 5514

$

Bankston’s claim as to Ground Three is without merit and no hearing need be held regarding
ineffective assistance of counsel.
ii.

Ground Fouit- Jury Compositjpa^

Ms. Bankston claims her counsel was ineffective due to her failure to challenge the
composition of the jury. Ms. Bankston waived her right to counsel prior to the Court questioning
the first potential juror during voir dire as reflected in the record. (ECF # 242, p. 39) Although
Ms. Bankston claims she waived her right to counsel during voir dire, the record shows
otherwise. Therefore, no hearing as to the effectiveness of counsel is warranted on this ground as
Ms. Bankston’s allegations “cannot be accepted as true because they are contradicted by the
record[.]” Arredondo v. United States, 178 F.3d 778, 782 (6th Cir. 1999).
iii.

Ground Six - Initial Sentencing

Next, Ms. Bankston asserts that her counsel was ineffective for failing to present
evidence or call witnesses for mitigation purposes during the initial sentencing hearing. (ECF #
312, p. 27-8). Again, Ms. Bankston fails to specifically name any witness or any specific
mitigating evidence that may have been presented. She has presented no information or factual
allegation that would support a finding of effective assistance of counsel. She has also failed to
present any information that would suggest that she suffered any prejudice from the claimed
deficiency. Ground Six is without merit as “making conclusory allegations are insufficient to
state a constitutional claim.” Wogenstahl, 668 F.3d at 335. Therefore, no hearing is warranted on
the basis of Ground Six.

9

Case: l:13-cr-00166-DCN Doc #: 322 Filed: 08/05/19 10 of 13. PagelD#:5515

iv.

Ground Seven - Resentencing

Additionally, Ms. Bankston contends her counsel was ineffective by failing to prepare for
the resentencing hearing. (ECF # 312, p. 29). Ms. Bankston claims her counsel erred in
conceding that the Sixth Circuit remand for resentencing was a general remand. Although the
Sixth Circuit specifically instructed the District Court to address three specific issues, there is
nothing in the record to support Ms. Bankston’s assertion. This issue was again raised on Ms.
Bankston’s second appeal, to which the court responded “Bankston is incorrect that our remand
barred the district court from reconsidering the entirety of her sentence . . .” United States v.
Bankston, 711 Fed. App’x. 307, 313-14 (6th Cir. 2017). This issue may not be relitigated here as
a § 2255 motion may not be used to relitigate an issue that was raised on direct appeal. DuPont
v. United States, 76 F.3d 108, 110 (6th Cir. 1996).
Ms. Bankston also alleges that resentencing counsel was ineffective for failing to (1)
investigate the loss calculations; (2) object to the consecutive aggravated identity theft sentences;
and (3) object to the “sophisticated money laundering enhancement.” (ECF # 319, p. 14). The
record shows that both Ms. Bankston and her counsel argued all the above points, but were
unsuccessful in their efforts. A § 2255 motion requires that the counsel be effective and to be
effective, counsel must be “competent, but not necessarily victorious.” Wiley v. Sowders, 647
F.2d 642, 648 (6th Cir. 1981) (citing Beasley v. United States, 491 F.2d 687, 696 (6th Cir.
1974)). Therefore, ground seven of Ms. Bankston’s appeal is without merit as an unsuccessful
argument does not equate to ineffective assistance of counsel.
v.

Ground Eight - Direct Appeal

Finally, Ms. Bankston asserts ineffective assistance of counsel for the failure to argue the
following issues on direct appeal: (1) due process and potential Brady violations; (2) failure of

10

Case: l:13-cr-00166-DCN Doc #: 322 Filed: 08/05/19 11 of 13. PagelD#:5516

this Court to make a record on the aggravated identity theft sentence and; (3) the 3553(a) factors.
(ECF # 319, p. 14)Q\s the Defendant, Ms. Bankston has the ultimate decision to file an appeal^
however, due to their knowledge and expertise, counsel is better suited to determine which
issues to argue on appeal. Jones v. Barms, 463 U.S. 745, 751 (1983). Counsel is not ineffective

J

for refusing the litigate every conceivable issue. Coleman v. Mitchell, 268 F.2d 417, 430-31 (6th
Cir. 2001). Furthermore, “the process of winnowing out weaker arguments on appeal and
focusing on those more likely to prevail, far from being evidence of incompetence, is the
hallmark of effective appellate advocacy.” Smith v. Murray, All U.S. 527, 536 (1986). To
prevail on this claim, Ms. Bankston must show “that the issue not presented ‘was clearly
stronger than issues that counsel did present,”’ which she has failed to do. Caver v. Straub, 349
F.3d 340, 348 (6th Cir. 2003) (quoting Smith, 528 U.S. at 289). Ground Eight fails to meet the
burden necessary to hold a hearing on this issue.
III. Certificate of Appealability
Pursuant to 28 U.S.C. § 2253, the Court must determine whether to grant a certificate of
appealability as to any of the claims presented in the petition. 28 U.S.C. § 2253 provides, in part:
(c)(1) Unless a circuit justice or judge issues a certificate of appealability, an
appeal may not be taken to the court of appeals from - .
(A) the final order in a habeas corpus proceeding In which the detention
complained of arises out of process issued by a State court; or
(B) the final order in a proceeding under section 2255.
(2) A certificate of appealability may issue under paragraph (1) only if the
applicant has made a substantial showing of the denial of a constitutional
right.
(3) The certificate of appealability under paragraph (1) shall indicate which
specific issue or issues satisfy the showing required by paragraph (2).

11

Case: l:13-cr-00166-DCN Doc #: 322 Filed: 08/05/19 12 of 13. PagelD#:5517

In order to make “substantial showing” of the denial of a constitutional right, as
required under 28 U.S.C. § 2255(c)(2), a habeas petitioner must demonstrate ‘that
reasonable jurists could debate whether . . . the petition should have been resolved in a
different maimer or that the issues presented were ‘adequateJn_deserve encouragement to
proceed further.’” Slack v. McDaniel, 529 U.S. 473, 484 (2000) (quoting Barefoot v.
Estelle, 463 U.S. 880, 893 (1983).
Where a district court has rejected the constitutional claims on the merits, the
petitioner must demonstrate only that reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or wrong. See Id. at 484. Where the
petition has been denied on a procedural ground without reaching the underlying
constitutional claims, the court must find that the petitioner has demonstrated that
reasonable jurists could debate whether the petition states a valid claim of the denial of a
constitutional right and that reasonable jurists could debate whether the district court was
correct in its procedural ruling. Id. “Where a plain procedural bar is present and the
district court is correct to invoke it to dispose of the case, a reasonable jurist could not
conclude either that the district court erred in dismissing the petition or that the petitioner
should be allowed to proceed further.” Id
For the reasons stated above, this Court concludes that Ms. Bankston has failed to
make a substantial showing of the denial of a constitutional right and there is no
reasonable basis upon which to debate this Court’s procedural rulings. Accordingly, this
Court declines to issue a certificate of appealability.

12

%

Case: l:13-cr-00166-DCN Doc #: 322 Filed: 08/05/19 13 of 13. PagelD #: 5518

IV. Conclusion
After careful review of the record and application of relevant law. Ms. Bankston has not: met
the burden required to prevail on her claim for relief pursuant to § 2255. It is unnecessary to hold
a hearing on this claim as “the motion, files and records conclusively show that the prisoner is
not entitled to relief.” Bryan v. United Stales, 721 F.2d 572, 577 (6th Cir. 1983). As all eight of
Ms. Bankston’s alleged grounds for relief are without merit, she has failed to meet the burden
required under § 2255 and therefore, her motion to vacate, set aside, or correct sentence is
DENIED.
IT IS SO ORDERED.

DONALD C. NUGENT/|
Senior United States Distinct Judge

DATED:

13

Case: l:13-cr-00166-DCN Doc #: 323 Filed: 08/05/19 lofl. Page ID #: 5519

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OHIO EASTERN DIVISION

ANGELIQUE BANKSTON,
Defendant-Petitioner,

)
)

CASE NO. 1:13 CR 166

)
)

v.

)
)

UNITED STATES OF AMERICA

JUDGE DONALD C. NUGENT

)
)

Plain tiff-Respon d ent

)

JUDGMENT

For the reasons stated in the Memorandum Opinion filed contemporaneously herewith, the
Petitioners Motion to Vacate, Set Aside, or Correct Sentence pursuant to 28 U.S.C. § 2255 (ECF
#312) is hereby DENIED. Furthennore, this Court certifies that pursuant to 28 U.S.C. § 1915(a)(3),
an appeal from this decision could not be taken in good faith, and there is no basis upon which to
issue a certificate of appealability. 28 U.S.C. § 2253(c); Fed. R. App. P. 22(b).
This case is hereby TERMINATED.
IT IS SO ORDERED.

I

U

4

DONALD C. NUGENT
Senior United States District Judge
DATED:

A <3

Dfp^xC
&
Positive
As of: February 17, 2017 8:34 AM EST

United States v. Bankston
United States Court of Appeals for the Sixth Circuit
December 9, 2015, Argued; April 14, 2016, Decided; April 14, 2016, Filed
File Name: 16a0091p.06
No. 14-3723

Reporter
820 F,3d 215 *; 2016 U.S. App. LEXIS 6763 **; 2016 FED App. 0091P (6th Cir.) ***
UNITED STATES OF AMERICA, Plaintiff-Appellee, v.
ANGEUQUE BANKSTON. Defendant-Appellant.
Subsequent History: Rehearing denied by, Rehearing,
en banc, denied by United States v. Bankston, 2016
U.S. App, LEXIS 13039 (6th Cir,, June 20, 2016)
Prior History: [**1] Appeal from the United States
District Court for the Northern District of Ohio at
Cleveland. No. 1:13-cr-00166-1—David D. Dowd, Jr.,
District Judge.

Hale v. United States, 2014 U.S. Dist. LEXIS 165565
(N.D, Ohio, Nov, 25, 2014)

version of Fed. R. Crim. P. 12 was in effect during
defendant's trial and when she filed the appeal, and it
contained a failure to state an offense exception that
preserved her defective indictment claim, to apply
amended Rule...12 to defendant's claims would be
unjust; [3]-Because the count charging defendant with
making false statements was based on conduct that, on
the face of the judicial function exception in 18 U.S.C.S,
§_..1001(b), did not constitute a crime, the indictment
failed to state an offense.
Outcome
Judgment affirmed in part and vacated in part. Case
remanded for resentencing.

LexisNexis® Headnotes

Core Terms
indictment, questions, district court, district judge,
sentencing, argues, counts, convictions, judicial
function, false statement, fail to state, mails, waive
counsel, self-representation, proceedings, waived,
prosecutorial misconduct, identity theft, plain error,
ineffective, vacate, amount of loss, mail fraud,
resentencing, exemption, contends, charges, planted,
judicial proceeding, fraudulent scheme

Case Summary

Criminal Law & Procedure > ... > Standards of
Review > Plain Error > Burdens of Proof
Criminal Law & Procedure > ... > Standards of
Review > Plain Error > Definition of Plain Error
HN1\Jk,] In order to prevail on plain error review, the
defendant must show that the district judge's decision
constituted a plain error that affected her substantial
rights and that implicated the fairness, integrity, or public
reputation of judicial proceedings.

Overview
HOLDINGS: [1]-There was no error in the district court's
Faretta inquiry as it addressed the relevant
considerations by asking a series of questions that were
drawn from, or substantially similar to, the model inquiry
questions, and the district court also substantially made
the required finding that defendant's waiver of counsel
was knowing and voluntary; [2]-Because the older

Constitutional Law > ... > Fundamental Rights > Criminal
Process > Assistance of Counsel
Criminal Law & Procedure > Counsel > Waiver > Standards
Criminal Law &
Procedure > Counsel > Waiver > Proceedings
F/A/2f&1 The Sixth Amendment right to counsel has

JDavid Doughten

C- fir

820 F.3d 215, *215; 2016 U.S. App. LEXIS 6763, **1; 2016 FED App. 0091P (6th Cir.),
implicit within it a right to self-representation.
Recognizing the advantages of legal representation, the
Faretta Court required, however, that, in order to
represent himself, the accused must knowingly and
intelligently forgo those relinquished benefits. Thus,
while a defendant need not himself have the skill and
experience of a lawyer in order competently and
intelligently to choose self-representation, he should be
made aware of the dangers and disadvantages of selfrepresentation, so that the record will establish that he
knows what he is doing and his choice is made with
eyes open.

Page 2 of 20
Cir.)

Procedure > Counsel > Waiver > Proceedings
HN4\3L\ The Faretta inquiry is not rendered deficient
due to the absence of any particular question. The
substantial similarity standard, moreover, does not
require a precise accounting of the questions asked,
The critical question is whether, in context, the
questions asked by the court meet the objectives of the
model inquiry,

Criminal Law &
Procedure > Counsel > Waiver > Proceedings
Criminal Law & Procedure > Counsel > Waiver > Standards
Constitutional Law > ... > Fundamental Rights > Criminal
Process > Assistance of Counsel

Criminal Law & Procedure > Counsel > Waiver > Standards
Constitutional Law > ... > Fundamental Rights > Criminal
Process > Assistance of Counsel
HA/5[Jb]

Criminal Law &
Procedure > Counsel > Waiver > Proceedings
HN3\Jk] In determining whether a defendant's waiver of
counsel was knowing and intelligent, the Sixth Circuit
has required only that the questions be drawn from, or
substantially similar to, the model inquiry set forth in the
Bench Book for United States District Judges, rather
than adhere literally to the recommended list of
questions in the model inquiry. Substantial compliance
and not literal adherence to the model inquiry is
required. Consistently, the appellate court has reviewed
a district judge's Faretta inquiry on appeal by focusing
on whether the judge addressed the relevant
considerations behind the model inquiry, such as the
defendant's familiarity with the law, the gravity of the
charges and the dangers of self-representation, and
whether the defendant's decision to waive counsel is
voluntary. Very generally, the model inquiry is thirteen
questions about the defendant's familiarity with the law
and legal system, and the charges against him. This
inquiry must be followed by a strong admonishment that
the court recommends against the defendant trying to
represent himself or herself. Where the record shows
that the defendant knew what he was doing and his
choice was made with eyes open, the appellate court
has found the Faretta inquiry adequate.

Constitutional Law > ... > Fundamental Rights > Criminal
Process > Assistance of Counsel

The

Sixth

Circuit's

disavowal of literal
adherence to the model inquiry for determining whether
a defendant's waiver of counsel was knowing and
intelligent means not only that each individual question
need not be identical to one of the Bench Book for
United States District Judge's questions, but also that
the overall shortfall as compared to the thirteen
questions need not be an error. Rarely, if ever, has the
court based the adequacy of the Faretta inquiry solely
on the precise number of the model questions asked,

Constitutional Law > ... > Fundamental Rights > Criminal
Process > Assistance of Counsel
Criminal Law & Procedure > Counsel > Waiver > Standards
Criminal Law &
Procedure > Counsel > Waiver > Proceedings
Hm[A] Where a district court does not specifically find
that a defendant had knowingly and voluntarily waived
his right to counsel, the district judge's statement that it
finds that the defendant has the requisite knowledge,
education and ability to represent yourself in this matter,
establishes that the defendant's waiver is knowing and
voluntary, and the district court substantially makes the
required finding.

Criminal Law & Procedure > ... > Fraud Against the
Government > False Statements > Elements

Criminal Law & Procedure > Counsel > Waiver > Standards
Criminal Law &

HN7[£z] 78 U.S.C.S. §.1001(b) provides that .§ 1001(a).

David Doughten

Page 3 of 20
820 F.3d 215, *215; 2016 U.S. App. LEXIS 6763, **1; 2016 FED App. 0091P (6th Cir.), ***Cir.)
which criminalizes making false statements in matters
within the jurisdiction of the executive, legislative, or
judicial branch of the Government of the United States,
does not apply to a party to a judicial proceeding for
statements, representations, writings or documents
submitted by such party to a judge or magistrate in that
proceeding.

Criminal Law & Procedure > Preliminary
Proceedings > Pretrial Motions & Procedures > Dismissal
Criminal Law & Procedure > ... > Accusatory
Instruments > Dismissal > Procedure

in this order parallels the language in the Rules
Enabling Act, which provides that the Supreme Court
shall not require the application of such rule to further
proceedings then pending to the extent that, in the
opinion of the court in which such proceedings are
pending, the application of such rule in such
proceedings would not be feasible or would work
injustice. 28 U.S.C.S. .$ 2074(a). Hence, the applicability
of amended Fed. R. Crim. P..IP depends on whether its
retroactive application to cases pending at the time of
the amendment would be just and practicable, or,
instead, would work injustice or be infeasible. In the
latter circumstances, the old rule governs.

W/VS[J«] The 2013 version of Fed. R. Crim, P. 12 stated
that a motion alleging a defect in the indictment must be
filed prior to trial, and that a failure to do so would result
in a waiver of that claim. Rule 12(b)(3)(B). (ej. This old
version of Rule 12. however, also carved out an
exception to the waiver rule stating that at any time
while the case is pending, the court may hear a claim
that the indictment or information fails to invoke the
court's jurisdiction or to state an offense. Rule
12(b)(3)(B). By contrast, the 2014 version of Rule 12(b).
which took effect on December 1, 2014, eliminated the
failure to state an offense exception, while modifying the
consequences of failing to file a Rule 12(b)(3) motion.
Rule 12(b)(3)(B)(v). That is, the current rule states that a
failure to file a 12(b)(3) motion prior to trial, including, a
motion alleging a failure to state an offense, is untimely,
but that a court may nonetheless consider the objection
if the party shows good cause. Rule 12(c)(3).

Criminal Law & Procedure > Preliminary
Proceedings > Pretrial Motions & Procedures > Dismissal
Governments > Legislation > Effect &
Operation > Amendments

Governments > Courts > Rule Application & Interpretation
Governments > Legislation > Effect &
Operation > Amendments
HNTOUfc Orders approving

amendments to federal
procedural rules reflect the commonsense notion that
the applicability of such provisions ordinarily depends on
the posture of the particular case.

Criminal Law & Procedure > Preliminary
Proceedings > Pretrial Motions & Procedures > Dismissal
Criminal Law & Procedure > ... > Accusatory
Instruments > Dismissal > Procedure
HN11\&] Under the current Fed. R. Crim, P, 12. the
failure to raise a defective indictment claim in a pre-trial
motion may result in a waiver of that claim. Rule
12(b)(3)(B)(v).

Criminal Law & Procedure > Preliminary
Proceedings > Pretrial Motions & Procedures > Dismissal

Governments > Legislation > Effect &
Operation > Retrospective Operation
Governments > Courts > Rule Application & Interpretation

Criminal Law & Procedure > ... > Accusatory
Instruments > Dismissal > Procedure
HN12\Jk,\ Under the 2013 version of Fed. R. Crim. P.

Criminal Law & Procedure > ... > Accusatory
Instruments > Dismissal > Procedure
HN9[lSL] The United States Supreme Court's order
promulgating the 2014 amendments to the Federal
Rules of Criminal Procedure stated that the new rules
shall govern in all proceedings in criminal cases
thereafter commenced and, insofar as just and
practicable, all proceedings then pending. The language

12, the appellate court provides plenary review to a
claim that the allegations of the indictment fail to state
an offense. Rule 12(b)(3)(B). De novo review applies if
the claim that the defendant failed to raise under Rule
...... "
12(b) is a claim that contends that the indictment failed
to establish jurisdiction or to charge an offense.

David Doughten

Page 4 of 20
820 F.3d 215, *215; 2016 U.S. App, LEXIS 6763, **1; 2016 FED App. 0091P (6th Cir.), ***Cir.)
Criminal Law & Procedure > ... > Fraud Against the
Government > False Statements > Elements
HN13[Jk] 18_LLS£-S. § 1001(a) sets forth the criminal
prohibition, while .§ 7001(h) provides for the statutory
exemption. These provisions state, in part: (a) Except as
otherwise provided in this section, whoever, in any
matter within the jurisdiction of the executive, legislative,
or judicial branch of the Government of the United
States, knowingly and willfully (1) falsifies, conceals, or
covers up by any trick, scheme, or device a material
fact; (2) makes any materially false, fictitious, or
fraudulent statement or representation; or (3) makes or
uses any false writing or document knowing the same to
contain any materially false, fictitious, or fraudulent
statement or entry; shall be fined under this title,
imprisoned not more than five years; (b) § 1001(a) does
not apply to a party to a judicial proceeding, or that
party's counsel, for statements, representations, writings
or documents submitted by such party or counsel to a
judge or magistrate in that proceeding. § WOT.

Criminal Law & Procedure > ... > Fraud Against the
Government > False Statements > Elements
tlNMl&l The exemption in W U.S.C.S. § 1001(h).
frequently referred to as a judicial function exception,
applies when the defendant shows: (1) he was a party
. to a judicial proceeding, (2) his statements were
submitted to a judge or magistrate, and (3) his
statements were made in that proceeding.

Criminal Law & Procedure > Preliminary
Proceedings > Pretrial Motions & Procedures > Dismissal
Criminal Law & Procedure > ... > Dismissal > Grounds for
Dismissal > Defective Instrument
HNW\i&.\ Under the old version of Fed. R. Crim. P.
]_2[b], a defendant who contends that the indictment
fails to establish jurisdiction or to charge an offense may
raise that challenge at any time.

Criminal Law & Procedure > Preliminary
Proceedings > Pretrial Motions & Procedures > Dismissal
Criminal Law & Procedure > ... > Dismissal > Grounds for
Dismissal > Defective Instrument
HN17\&,} Under the old. version of Fed.______
R. Crim. P,
12M. a claim that the indictment failed to state an
offense can be raised for the first time on appeal.

Criminal Law & Procedure > ... > Fraud Against the
Government > False Statements > Elements
Criminal Law & Procedure > ... > Dismissal > Grounds for
Dismissal > Defective Instrument
Criminal Law & Procedure > Preliminary
Proceedings > Pretrial Motions & Procedures > Dismissal
WA/7§[A] Where the underlying conduct is so patently
not a crime that it satisfies 78 U.S.C.S. § 1001(b) on its
face, the indictment fails to state an offense when it
charges a false statement crime while omitting the
judicial function exception.

Criminal Law & Procedure > ... > Fraud Against the
Government > False Statements > Elements
Criminal Law & Procedure > ... > Dismissal > Grounds for
Dismissal > Defective Instrument
Criminal Law & Procedure > Preliminary
Proceedings > Pretrial Motions & Procedures > Dismissal
HN15[i.] The judicial function exception is different
from a formalistic objection to a defect in the indictment
because it goes to the heart of whether, as a matter of
law, the defendant can be convicted of the crime with
which he was charged. Thus, a claim that the judicial
function exception applies to particular statements is a
claim alleging a failure to state an offense and,
therefore, is not waived under the old version of Fed. R.
Crim. P. 12(b).

Criminal Law & Procedure > ... > Dismissal > Grounds for
Dismissal > Defective Instrument
Criminal Law & Procedure > Preliminary
Proceedings > Pretrial Motions & Procedures > Dismissal
HNWlJL] A reversal of conviction is warranted, even
without a showing of prejudice, where the indictment
cannot within reason be construed to charge a crime,

Criminal Law & Procedure > ... > Standards of

David Doughten

Page 5 of 20
820 F.3d 215, *215; 2016 U.S. App. LEXIS 6763, **1; 2016 FED App. 0091P (6th Cir.), ***Cir.)
Review > Plain Error > Definition of Plain Error

direct appeal, the appellate court departs from that
practice where the existing record is adequate to assess
properly the merits of the claim.

Criminal Law & Procedure > ... > Standards of
Review > Plain Error > Burdens of Proof
HN2Qjk\ Where the defendant did not raise a claim in
the district court, the appellate court reviews the claim
only for plain error. The defendant must show that the
alleged error was not only plain, but that it affected her
substantial rights and implicated the fairness, integrity,
or reputation of the trial.

Criminal Law & Procedure > ... > Standards of Review > De
Novo Review > Ineffective Assistance of Counsel
HN251&] Ineffective assistance of counsel claims are
mixed questions of law and fact, which the appellate
court reviews de novo on appeal.

Criminal Law & Procedure > Appeals > Prosecutorial
Misconduct > Tests for Prosecutorial Misconduct
HN21\&A

Improper

but

non-flagrant

prosecutorial
conduct requires a new trial if (1) proof of defendant's
guilt is not overwhelming, and (2) defense counsel
objected, and (3) the trial court failed to cure the error
with an admonishment to the jury.

Criminal Law & Procedure > ... > Standards of
Review > Plain Error > Burdens of Proof
Civil Procedure > ... > Inability to Proceed > Disqualification
& Recusal > Grounds for Disqualification & Recusal
HN22\Jh
Where
the
defendant
does
not
contemporaneously object to the trial court's conduct,
the appellate court reviews that conduct under the plainerror standard.

Criminal Law & Procedure > Counsel > Effective Assistance
of Counsel > Tests for Ineffective Assistance of Counsel
HN26\Jk] Under Strickland, a defendant must satisfy a
two-pronged standard to demonstrate ineffective
assistance of counsel. First, the defendant must show
that counsel’s performance was deficient, i.e„ that it fell
below an objective standard of reasonableness.
Second, the defendant must show that the deficient
performance by counsel was prejudicial to the defense.
This showing of prejudice requires a reasonable
probability that, but for counsel's unprofessional errors,
the result of the proceeding would have been different.

Criminal Law & Procedure > Counsel > Effective Assistance
of Counsel > Tests for Ineffective Assistance of Counsel
WA/27[Jk] Counsel's complete ignorance of the relevant

Civil Procedure > ... > Disqualification & Recusal > Grounds
for Disqualification & Recusal > Personal Bias
Civil Procedure > ... > Disqualification & Recusal > Grounds
for Disqualification & Recusal > Appearance of Partiality
HN23\mtij A judge's conduct may be characterized as

law under which his client was charged fell below the
objective standard of reasonableness.

Criminal Law & Procedure > Counsel > Effective Assistance
of Counsel > Tests for Ineffective Assistance of Counsel

bias or prejudice warranting recusal only if it is so

HN28h&\ Counsel's failure to object to prosecutorial

extreme as to display clear inability to render fair
judgment.

misconduct may constitute a deficient performance
where the failure is due to lack of knowledge of
controlling law, rather than reasonable trial strategy.

Criminal Law & Procedure > Counsel > Effective Assistance
of Counsel > Reviewability
HN24\Jk\ While the appellate court does not typically
consider ineffective assistance of counsel claims on

Criminal Law & Procedure > Counsel > Effective Assistance
of Counsel > Tests for Ineffective Assistance of Counsel
HN23\Jk] A reasonable probability is a probability

David Doughten

Page 6 of 20
820 F.3d 215, *215; 2016 U.S. App. LEXIS 6763, **1; 2016 FED App. 0091P (6th Cir.), ***Cir.)
sufficient to undermine confidence in the outcome.

Criminal Law &
Procedure > ... > Reviewability > Preservation for
Review > Abandonment

evidence de novo, affirming the defendant's convictions
if, after viewing the evidence in the light most favorable
to the prosecution, any rational trier of fact could have
found the essential elements of the crime beyond a
reasonable doubt. The appellate court must draw all
available inferences and resolve all issues of credibility
in favor of the jury's verdict.

MM4 Issues adverted to in a perfunctory manner,
unaccompanied
by some effort
argumentation, are deemed waived.

at

developed
Criminal Law & Procedure > ... > Fraud > Wire
Fraud > Elements
HN35\Jk] To prove wire fraud under 78 U.S.C.S, $

Criminal Law &
Procedure > ... > Reviewability > Preservation for
Review > Abandonment

1343, the government must show, inter alia, that the
defendant used or caused to be used an interstate wire
communication in furtherance of the scheme.

HN31\jq It is not sufficient for a party to mention a
possible argument in the most skeletal way, leaving the
court to put flesh on its bones.

Criminal Law & Procedure > Commencement of Criminal
Proceedings > Accusatory Instruments > Indictments
Criminal Law & Procedure > Trials > Burdens of
Proof > Prosecution

Criminal Law & Procedure > Appeals > Reversible
Error > Cumulative Errors
H/V32fA] The existence of only one error eliminates the
foundation of the cumulative-effect theory. Indeed, the
appellate court's recognition of the cumulative-effect
theory has been limited to situations where errors that
might not be so prejudicial as to amount to a deprivation
of due process when considered alone, may
cumulatively produce a trial setting that is fundamentally
unfair.

HN36\mtm] The government need not prove everything in
an indictment but only so much thereof as establishes a
violation of the statute,

Criminal Law & Procedure > ... > Fraud Against the
Government > Mail Fraud > Elements
HA/37fAil Mail fraud, as specified in 18 U.S.C.S. S 1341.
requires a showing, inter alia, that the defendant's
conduct involved a use of the mails.

Criminal Law & Procedures Appeals > Reversible
Error > Cumulative Errors
HA/33[&] To establish cumulative error, a defendant
must show that the combined effect of individually
harmless errors was so prejudicial as to render his trial
fundamentally unfair.

Criminal Law & Procedure > ... > Standards of Review > De
Novo Review > Sufficiency of Evidence
Criminal Law & Procedure > ... > Standards of
Review > Substantial Evidence > Sufficiency of Evidence
HN34\JL] The appellate court reviews sufficiency of the

Criminal Law & Procedure > ... > Theft & Related
Offenses > Identity Theft > Penalties
HA/33fA] Aggravated

identity theft convictions are
treated separately for sentencing purposes, with each
conviction supporting a mandatory two-year sentence
that has to be served consecutively with the sentence
imposed for other crimes. 18 U.S.C.S. § 1028A(b)(2).
Where the defendant is convicted of more than one
aggravated identity theft charges, the sentences for all
aggravated identity theft convictions may, in the
discretion of the sentencing court, run concurrently with
each other. § 1028A(b)(4).

David Doughten

820 F.3d 215, *215; 2016 U.S. App. LEXIS 6763, **1; 2016 FED App. 0091P (6th Cir.)

Page 7 of 20
Cir.)

Mark S. Bennett, UNITED STATES ATTORNEY'S
OFFICE, Cleveland, Ohio, for Appellee.
Criminal Law & Procedure > Sentencing > Imposition of
Sentence > Findings
Criminal Law & Procedure > Sentencing > Imposition of
Sentence > Factors
HN39[A.1 A court departing upward from a defendant's
calculated criminal history category must articulate its
reasons for departing from the guidelines in language
relating to the guidelines.

Criminal Law & Procedure > ... > Appeals > Standards of
Review > De Novo Review
HN40\dL] Where a defendant's claim that the district
court failed to resolve the dispute over the loss amounts
is preserved, the appellate court reviews it de novo.

Criminal Law & Procedure > Sentencing > Presentence
Reports
HN41\&n] Fed. R. Crim. P. 32(i)(3)(B) states that a
sentencing court must, for any disputed portion of the
presentence report or other controverted matter, rule on
the dispute or determine that a ruling is unnecessary
either because the matter will not affect sentencing, or
because the court will not consider the matter in
sentencing. The appellate court has required literal
compliance with this rule. Hence, while the district court
need not establish the value of the loss with precision,
the district court must publish the resolution of contested
factual matters that formed the basis of the calculation.
A mere expression of an agreement with the
government's proposed loss amount, without explaining
how the court calculated the amount of loss and
responding to the defendant's specific factual objections
to the methods of calculation, does not suffice.
Counsel: ARGUED: Nadia Wood, OFFICE OF THE
FEDERAL PUBLIC DEFENDER, Columbus, Ohio, for
Appellant.
Mark S. Bennett, UNITED STATES ATTORNEY'S
OFFICE, Cleveland, Ohio, for Appellee.
ON BRIEF: Nadia Wood, OFFICE OF THE FEDERAL
PUBLIC DEFENDER, Columbus, Ohio, for Appellant.

Judges: Before: STRANCH, DONALD, and LIPEZ,"
Opinion by: Kermit V. Lipez
Opinion
[***2] [*220] LIPEZ, Circuit Judge. Asserting that her
trial on twenty-three fraud-related charges was flawed
by numerous errors, Defendant-Appellant Angelique
Bankston asks us to vacate all of her convictions and
remand for a new trial. In particular, she argues that (1)
her waiver of counsel was invalid, (2) she was
improperly charged in count 23 with making false
statements to a judge in violation of 78 U.S.C. .§ 7007.
(3) the trial proceedings were procedurally deficient due
to judicial bias, prosecutorial misconduct, and
ineffective [**2] assistance of counsel, and (4) the
evidence was insufficient to support her convictions for
wire and mail fraud. She further contends that, even if
we reject her claims of trial error, she is entitled to
resentencing.
Having carefully considered her claims, we conclude
that only her claims of error as to the count 23
conviction and sentencing have merit. Therefore, we
VACATE Bankston's conviction on count 23 of making
false statements in violation of 78 U.S.C. 51001.
AFFIRM her convictions on all other counts, and
REMAND the case for resentencing.
I.
On August 28, 2013, Bankston was charged in a twentythree-count Second Superseding Indictment with
committing wire fraud, mail fraud, bank fraud, money
laundering, identity theft, and a false statement offense
'n connection with three separate fraudulent schemes
that occurred between March 2011 and June 2012.
Unlike the previous indictments, this superseding
indictment (and the final and operative Third
Superseding Indictment) included count 23, which
charged Bankston with making false statements in
matters within the jurisdiction of the judiciary, based on
a letter she wrote to the district judge accusing the
government of planting evidence in her home. [**3]

k

Although Bankston asks that we vacate her convictions

'The Honorable Kermit V. Lipez, Circuit Judge for the United
States Court of Appeals for the First Circuit, sitting by
designation.

David Doughten

Page 8 of 20
820 F.3d 215, *220; 2016 U.S. App. LEXIS 6763, **3; 2016 FED App. 0091P (6th Cir.), ***2
on every count, the fraudulent activity pertinent to her
claims on appeal concerns primarily one of the three
fraudulent schemes—the so-called "Citizens Bank and
Lending Club Scheme." Hence, we limit our recitation of
the facts to that particular scheme and provide
additional details as necessary in our [***3] analysis.
Similarly, we briefly sketch out the procedural
background in this section, reserving a more complete
account of the [*221] trial proceedings until our
discussion of Bankston's claims.
v All of Bankston's fraudulent schemes followed one
fundamental pattern. She unlawfully obtained the
personal identification information of individuals and
used it to defraud commercial banks and the state and
federal government.Jn the Citizens Bank and Lending
Club Scheme, she instructed her co-conspirator,
Jocelyn Hale, to open an account at Citizens Bank in
the name of Rachelle Butler—whose personal identifiers
Bankston had illegally obtained—at the bank's branch
office in Erie, Pennsylvania. When opening the account,
Hale also opened a Citizens Bank credit card in Butler's
name.* Bankston then deposited funds in Butler's
Citizens Bank account, [**4] which she acquired in part
from a fraudulent Lending Club loan application that she
had filled out online using Butler's identifiers. Bankston
then instructed Hale to withdraw a portion of these funds
in the form of two cashier checks. Bankston and Hale
failed to cash those checks, however, and a dispute
arose shortly thereafter over Bankston's refusal to pay
Hale as promised.
sSP**^

On September 5, 2012, Postal Inspector L.E. Macek
searched Bankston's home pursuant to a warrant. While
the search uncovered certain evidence of Bankston's
fraudulent schemes, such as a list of individuals whose
identifiers she had obtained unlawfully, most of the
search involved the postal inspector asking Bankston a
series of questions about her acquaintance with a co­
conspirator and her reasons for placing mail holds.1
Bankston answered these questions, having signed a
waiver of her Miranda rights.
Before trial, Bankston wrote a letter to the district judge
complaining of-a disagreement with her attorney about
trial strategy. Bankston wanted [**5] to present as a
defense her theory that the evidence of the fraudulent
schemes that was recovered from her home had been

1 Bankston placed mail holds on certain individuals whose
identities she had obtained in order to intercept various
documents and checks that she had arranged to be sent to
them.

planted by a federal agent. Specifically, she claimed that
Postal Inspector Macek, who performed the search of
her home, was in fact the same person as one of the
two local police officers who had visited her home
several months earlier on a separate investigation.
Bankston explained in her letter that her attorney's
refusal to present the planted evidence theory as a
defense resulted in a breakdown of the attorney-client
relationship. v
[***4] The district court treated Bankston's letter as a
pro se motion to suppress the evidence and held a
suppression hearing. The court also appointed new
counsel to represent Bankston. At the suppression -w
hearing, the two local police officers testified that they
were not aware of the federal investigation of Bankston
when they visited Bankston's home earlier that year on
a separate investigation, and that they did not enter her
residence or plant evidence. Instead, they left a card in
the door for Bankston to call. Macek testified that he
was not aware of the local police investigation of
Bankston, and he was not at Bankston's home
when [**6] the local police officers paid a visit earlier
that year. The district court denied Bankston's motion to
suppress^
Meanwhile, before the suppression hearing, the
government filed the Second Superseding Indictment
that included the count 23 false statement charge. That
charge relied solely on Bankston's letter as the factual
basis for the offense, excerpting, for instance, portions
of the letter in [*222] which Bankston explained her
planted evidence theory. The indictment also stated
that, in addition to deceiving the district court by
presenting the planted evidence theory, the letter
"caused the FBI and IRS agents assigned to the case to
perform additional investigation."
Trial commenced on November 5, 2013. During voir
dire, Bankston's attorney informed the district court that
Bankston wished to proceed pro se. While the district
judge was initially reluctant to allow Bankston to
represent herself, the judge ultimately conducted an
inquiry to determine if Bankston's decision to waive her
right to counsel was knowing and intelligent. The court
found that it was, and Bankston remained pro se
throughout the trial. The jury found Bankston guilty on
all twenty-three counts.
At the sentencing hearing, [**7] Bankston was again
represented by an attorney. After hearing argument on
various proposed enhancements to the base offense
level, the court determined Bankston’s base offense

David Doughten

Page 9 of 20
820 F.3d 215, *222; 2016 U.S. App. LEXIS 6763, **7; 2016 FED App. 0091P (6th Cir.), ***4
level to be 27, with a criminal history category of VI,
which resulted in the guideline range of 130 to 162
months. The court sentenced Bankston to 144 months
on counts other than the aggravated identity theft
counts, added a mandatory two-year consecutive
sentence for Bankston's aggravated identity theft
convictions, and imposed a total sentence of 168
months. This appeal followed.
r*5] ii.
Bankston raises five arguments on appeal. First, she
argues that her waiver of counsel was invalid because
the district court failed to conduct a full Faretta inquiry,
as required by United States v. McDowell. 814 F.2d 245
(6th Cir. 1987). Second, Bankston contends that count
23 in the indictment was defective because the
underlying conduct for the charge—here, writing a letter
to the district judge as part of a criminal defense—is
explicitly exempted from criminal liability under the
statute. Third, and relatedly, Bankston argues that there
were numerous errors throughout the trial relating to
count 23, which, individually and collectively, warrant a
new trial on all counts. These alleged [**8] errors
include: ineffective assistance of counsel in failing to
object to or move to dismiss count 23; prosecutorial
misconduct in overzealously pursuing that charge; and
judicial bias resulting from the district judge's failure to
recuse himself, despite the fact that he was the recipient
of Bankston's letter and hence a victim of the false
statement crime. Fourth, Bankston argues that her
convictions on counts 16 (wire fraud) and 18 (mail fraud)
should be vacated because the government failed to
prove essential elements of the crimes in those
respective counts—namely, the use of an interstate wire
communication for wire fraud and the use of the mails
for mail fraud. Finally, Bankston argues that the district
court committed a series of errors in sentencing, such
as incorrectly calculating the base offense level and
failing to provide an explanation for departure in the
criminal history category, which require resentencing.
We address each claim in turn.
A. Waiver of Counsel
The parties agree that plain error review applies to the
claim that Bankston's waiver of counsel was invalid.
Hence, HN1
in order to prevail, Bankston must show
that the district judge's Faretta inquiry constituted [**9] a
plain error that "affect[ed] [her] substantial rights" and
that implicated the "fairness, integrity, or public
reputation of judicial proceedings." Johnson v. United
States, 520 U.S. 461. 466-69, 117 S. Ct. 1544, 137 L.

Ed. 2d 718 (1997) (internal quotation marks omitted);
see also United f*223] States v. Oliver, 397 F.3d 369,
375-76 (6th Cir. 2005).
1***6] 1. Legal Principles
The legal standards governing the validity of waiver of
counsel are well-developed, though they are not without
complexities in application. In Faretta v. California. 422
U.S. 806, 819..95 S. Ct. 2525. 45 L. Ed. 2d 562 (1975).
the Supreme Court held that HA/2HH the Sixth
Amendment right to counsel has implicit within it a right
to self-representation. Recognizing the advantages of
legal representation, the Faretta Court required,
however, that, "in order to represent himself, the
accused must knowingly and intelligently forgo those
relinquished benefits." Id. at 835 (internal quotation
marks omitted). Thus, while "a defendant need not
himself have the skill and experience of a lawyer in
order competently and intelligently to choose self­
representation, he should be made aware of the
dangers and disadvantages of self-representation, so
that the record will establish that he knows what he is
doing and his choice is made with eyes open." Id.
(internal quotation marks omitted). Following the Court's
decision in Faretta, numerous circuits addressed the
question of what type of "record" is necessary [**10] to
establish that a defendant's waiver of counsel was
"knowing and intelligent." See, e.g., United States v.
Hafen, 726 F,2d 21,25-26 (1st Cir. 1984): Richardson v,
Lucas, 741 F.2d 753, 756-57 (5th Cir. 1984): United
States v. Kirnmei. 672 F.2d 720, 721-22 (9th Cir. 19821:
United States v. Bailey, 675 F.2d 1292, 1297-1302, 219
U.S. Ado. D,C. 67 (D.C. Cir. 1982).
This Circuit did so in McDowell. 814 F.2d at 248-50.
There, we acknowledged the "difficult position" of a
district judge in determining whether a waiver is knowing
and intelligent. Jjd._at_248. "An overprotective judge who
refuses to allow a defendant to jeopardize his own
defense may be reversed, and a judge who does not
make a copious inquiry into the thought process of the
accused (which may themselves be characterized as
trial strategy) is subject to an appeal . . . ." Id. at 248-49.
To mitigate such concerns, we identified "the nature of
the inquiry to be made and the procedure to be
followed" when a criminal defendant expresses a wish
to represent himself. Id. at 250. A model inquiry, we
noted, is one provided in the Benchbook for U.S. District
Court Judges ("Bench Book"). Id. We then instructed the
district courts in our circuit that:
In the future, whenever a federal district judge in

David Doughten

Page 10 of 20
820 F.3d 215, *223; 2016 U.S. App. LEXIS 6763, **10; 2016 FED App. 0091P (6th Cir.), ***6
this circuit is faced with an accused who wishes to
represent himself in criminal proceedings, the
model inquiry or one covering the same substantive
points along with an express finding [’**7] that the
accused has made a knowing and voluntary waiver
of counsel, shall [**11] be made on the record prior
to allowing the accused to represent himself.
Id.; see also id. at 251 (Appendix to the Opinion
(hereinafter "App.") reprinting a list of the Bench Book
questions).
The law of our Circuit has evolved since McDowell. If
the language of McDowell recommended a "formal
inquiry" that consists of thirteen questions and one
admonishment as specified in the Bench Book (or at
least questions that cover "[those] same substantive
points," id. at 250), our subsequent cases have hewed
closer to the underlying concern for setting forth the
model inquiry, i.e., the "difficult position" of the district
iijdge, id__aj 248. Thus, in the post-McDowell era, HN3\
+] we have required only that the questions be "drawn
from, or substantially similar to, the model inquiry set
forth in the [Bench Book]," rather than adhere literally to
the recommended list of questions in the model inquiry.
United States v. McBride. 362 F.3d 360, 366 (6th
GiL..2004); see also United States v. Utrera, 259 F.
AEIMJ24^ 728_(6th Cir. 2008) ("Substantial compliance
and not literal adherence to [the model inquiry] is
required."). Consistently, we have reviewed a district
judge's Faretta inquiry on appeal by focusing on
whether
the judge
addressed
the
"relevant
considerations" behind the model inquiry, such as "the
defendant’s familiarity with the law, ... the [**12] gravity
of the charges and the dangers of self-representation,"
and whether "the defendant's decision to waive counsel
is voluntary." United States v...Miller, 910 F.2d 1321,
IJJLtMh Cir. 1990); see also United States v. Williams.
641 F.3d 758, 767 (6th Cir. 2011) ("Very generally, the
model inquiry is thirteen questions about the defendant's
familiarity with the law and legal system, and the
charges against him. This inquiry must be followed by a
strong admonishment that the court recommends
against the defendant trying to represent himself or
herself."). Where the record shows that the defendant
"kn[ew] what he [wa]s doing and his choice [wa]s made
with eyes open," Faretta. 422 US..at 835 (internal
quotation marks omitted), we have found the Faretta
inquiry adequate.
[***8] 2. Whether the Faretta Inquiry Was Adequate
In the case before us, the district judge began the

inquiry by asking the following questions:
• "How far did you go in school?"
• "What college did you go to?"
• "Do you have any degrees?"
• "Have you ever studied law?"
• "When you were in college, did you take any
courses involving the law either as to the procedure
or the substance of the law?"
• "Have you ever represented yourself in a criminal
action?"
• "[D]o you understand the crimes you're charged
with in this case?" Based on an affirmative answer
from Bankston, the judge then asked, [**13] "[c]an
you list them for me now?"
• "Can you explain to me why you delayed until
today while we're impaneling the jury to decide that
you wanted to represent yourself?" When Bankston
answered, "I've been saying it over and over, [and] I
discussed it with my attorneys," the judge asked,
"[d]o you have any idea what your defenses are?"
• The judge further stated, "I am just curious as to if
you thought through what your defenses are."
Based on an affirmative answer from Bankston, the
judge then asked, "[h]ow are you going to establish
that?"
The judge then warned Bankston of the difficulties of
self-representation, stating, "[y]ou've got to decide
whether you are really serious about representing
yourself. It's a very difficult thing to do." In a similar vein,
thejudge also asked:
• "Do you understand if you represent yourself, it
will be your decision whether you testify or not?"
■ "And do you understand that if you represent
yourself and testify, I'll make you sit up here in the
witness stand[?]"
• "Do you understand that you won't be allowed to
consult with your lawyers about how you should
answer a question when you're being crossexamined?"
• "Have you ever heard the statement that he who
represents himself [**14] has a fool for a client?"
When
Bankston
repeatedly
expressed
her
understanding of the difficulties of self-representation
and her wish to do so regardless, thejudge inquired one
final [*225] time, "[o]kay. In [***9] spite of that, you
want to represent yourself; is that true?" Bankston
responded, "[y]es, I do." Thejudge then stated: "Let me
say for the record that I am satisfied that the defendant
has sufficient understanding of the case and sufficient

David Doughten

Page 11 of 20
820 F.3d 215, *225; 2016 U.S. App. LEXIS 6763, *‘14; 2016 FED App. 0091P (6th Cir.), ***9
intelligence to undertake the task of representing
herself. She has a constitutional right to represent
herself.

demonstrated below, HN4\Y] the Faretta inquiry is not
rendered deficient due to the absence of any particular
question.

Under these circumstances, we cannot say that the
district judges inquiry was inadequate under the
substantially similar standard. First, while Bankston
argues that the judge asked only three out of the
thirteen model questions,2 that accounting seems to be
incorrect.. For instance, the judge informed Bankston of
the possibility of taking the stand and the consequences
of doing so, as required by the model inquiry. Compare
R. 242: Voir Dire Tr„ at 2754 ("Do you understand if you
represent yourself, it will be your decision whether you
testify or not? ... And do you understand that if you
represent yourself and testify, I'll make you sit up
here [**15] in the witness stand?") with McDowell. 814
EMMI51JABBA C(k) You realize, do you not, that if
you decide to take the witness stand, you must present
your testimony by asking questions yourself? You
cannot just take the stand and tell your story. You must
proceed question by question through your testimony.").
While Bankston also argues that the judge did not
mention the statutory maximum penalties at voir dire,
the record shows that the district court discussed, at the
suggestion of the government, the statutory maximums
for each count the following day.3 Indeed, while we
recognize the time lapse between the initial Faretta
inquiry and when the colloquy on statutory maximums
occurred, we do not find it to be a plain error here
because the colloquy took place at the beginning of the
trial before any evidence was introduced, and, as

[***10] The "substantial similarity" standard, moreover,
does not require a precise accounting of the questions
asked. The critical question under McDowell and our
subsequent case law is whether, in context, the
questions asked by the court meet the objectives of the
model inquiry. Hence, while Bankston argues that the
judge failed to ask the remaining eight out of the thirteen
model inquiry questions, we find that many of those
eight questions were in fact addressed during [**17] the
colloquy, even if the judge did not ask them verbatim,
Upon learning that Bankston did not go to law school,
the judge asked whether, in college, Bankston "t[ook]
any courses involving the law either as to the procedure
or the substance of the law," R. 242: Voir Dire Tr., at
2750-51—an inquiry that "substantially" covers the two
model questions regarding the defendant's familiarity
with [*226] the Federal Rules of Evidence and the
Federal Rules of Criminal Procedure. See McDowell.
874 F.2d at 251 (Ann.) ("(g)" & "(j)'j. Similarly, while the
judge did not explicitly ask whether Bankston's decision
to represent herself was "entirely voluntary on [her]
part," id. (App.) ("(n)'j, the judge asked why she made
the decision late when the trial had already commenced,
and Bankston answered that she had expressed her
desire to represent herself "over and over" to her
attorneys after having "discussed it with [them]," R. 242:
Voir Dire Tr., at 2751, a response which suggested
voluntariness. The judge also asked Bankston whether,
in spite of the difficulties of self-representation, she
wanted to represent herself, id. at 2755—a question
that, again, bears substantial similarity to one of the
model questions in the Bench Book. See McDowell. 314

-------------------------2 Our 3 out of 13 questions" formulation is substantively the
same as Bankston's "4 out of 14 questions" characterization.
Bankston's
characterization
construes
the
"strong
admonishment" requirement as a question, rather than a
statement, which is how we characterized it [**16] in
McDoweli_8J4_F2d_JlL25_l_£App_.)_, and how we understand it
here.
3 We reject Bankston's argument that the government's
proposal on the first day of trial to go over the statutory
maximums suggests that the government knew that the initial
Faretta inquiry was deficient. Although the government
acknowledged that one of the thirteen model questions had
not been asked, it did not indicate that the inquiry conducted
was inadequate overall. Nor do we find it problematic that it
was the government, rather than the district judge, that
explicitly discussed the statutory penalties. After thanking the
government for placing the statutory penalties on the record,
the judge asked Bankston if she ”ha[d] any questions about
the maximum sentences." Bankston answered, "No."

F,2d..a.!. ...25]..(App.) ("(m) Now, in [**18] light of the
penalty that you might suffer if you are found guilty and
in light of all the difficulties of representing yourself, is it
still your desire to represent yourself and to give up your
right to be represented by a lawyer?").
We recognize that the remaining four questions were
not asked. We reiterate, however, that HNSlW] our
disavowal of "literal adherence" to the model inquiry,
Utrera, 259 F, Aoo'x at 728. means not only that each
individual question need not be identical to one of the
Bench Book questions, but also that the overall shortfall
as compared to the thirteen questions need not be an
error.4 Rarely, if ever, have we based the adequacy of

‘‘Where we have found error in the district court's Faretta

David Doughten

Page 12 of 20
820 F,3d 215, *226; 2016 U.S. App. LEXIS 6763, **18; 2016 FED App. 0091P (6th Cir.), ***10
the Faretta inquiry solely on the precise [***11] number
of the model questions asked. See id. (holding that the
district judge "substantially complied with the McDowell
inquiry" because the Court "rigorously explained the
pitfalls of self-representation" and "repeatedly attempted
to dissuade [the defendant] from proceeding pro se,
pointing] out that [he] lacked appropriate legal training"
and he would likely increase his risk of conviction" by
choosing to represent himself); Williams,..641 F.3d at
131 ("The district court's questioning substantially
covered the thirteen model questions drawn from
the [**19] Bench Book . . .
see also Miller, 910 F.2d

at 1324-25.
Finally, Bankston argues that the district judge did not
make an express finding that her waiver of counsel was
knowing and voluntary, as required by the model
inquiry. See McDowell, 814 F.2d at 251 (App.) (”(o)'j.
The district judge noted, however, that he was "satisfied
that the defendant has sufficient understanding of the
case and sufficient intelligence to undertake the task of
representing herself." R. 242: Voir Dire Tr„ at 2759.
While Bankston contends that this statement does not
suffice as an express finding because the judge did not
say knowing and voluntary," the requirement [**20] of
an express finding is not a magic word test. We held in
Williams, Hflf6[4‘] [although the district court did not
specifically find that [the defendant] had knowingly and
voluntarily waived his right to counsel," the district
judges statement at issue
I find that you have the
requisite knowledge, education [*227] and ability to
represent yourself in this matter"—"establishes that [the
defendant's] waiver was knowing and voluntary, and the
district court substantially made the required finding."
641 F.3d at 767 (emphasis added). The district judge's
colloquy and the statement here is virtually
indistinguishable from the statement in Williams.
In sum, the district court addressed the "relevant
considerations including "the defendant's familiarity
with the law, the gravity of the charges," and "the
inquiry, it was based on the judge's failure to address the
relevant considerations or make the express finding at allinstances clearly distinguishable from the case at issue. See,
e.g., United States v, Herrera-Martinez, 985 F.2d 298. 301-02
(6th Cir. 1993) (finding error in the district court's inquiry
because the judge allowed the defendant to proceed pro se
without making any express finding); United States v.
Clemons, No. 97-6267, 1999 U.S. Aoo. LEXIS 5977, 1999 WL
196568, at *4 (6th.Cir...1999) (holding that the defendant's
waiver of counsel was ineffective because, inter alia, ''[t]he
record reveals that the district court did not make this inquiry
or warn [the defendant] of the dangers of self-representation").

dangers of self-representation," Miller,

910 F.2d at

1324—by asking a series of questions that were "drawn
from, or substantially similar to," the model inquiry
questions, McBride. 362 F,3d at 366. The judge also
"substantially made the required finding" that Bankston's
waiver of counsel was [***12] knowing and voluntary.
Williams..641..F.3d at 767. We, therefore, find no error,
let alone plain error, in the judge's Faretta inquiry,
B. Defective Indictment as to Count 23
Count 23 of the operative indictment [**21] charged
Bankston with violating 18 U.S.C. 5 1001 for making
false statements in her letter to the district judge when
she asserted that the postal inspector who searched her
home while investigating
Bankston's fraudulent
schemes had previously posed as a local police officer
and planted the evidence that he later seized from her
residence. On appeal, Bankston claims that count 23
was defective because the underlying conduct was not
a crime under § 1001 (h). i.e., the charge failed to state
an offense. WJ7I?1 Section..1001(b) provides that §
1001(a)—which criminalizes making false statements in
"matter[s] within the jurisdiction of the executive,
legislative, or judicial branch of the Government of the
United States"—"does not apply to a party to a judicial
proceeding ... for statements, representations, writings
or documents submitted by such party ... to a judge or
magistrate in that proceeding." 18 U.S.C. 5 1001(b).
Bankston asserts that her conviction on count 23 must,
therefore, be vacated,
The government claims that Bankston's challenge to her
conviction on count 23 is waived because it was not
raised in a pretrial motion pursuant to Rule 12(b).
Alternatively, the government contends that Bankston's
conduct is not facially exempt because the indictment
alleged that Bankston's [*’22] false statements related
to matters "within the jurisdiction of the judicial and
executive branches of the United States" and "caused
the FBI and IRS agents assigned to the case to perform
additional investigation in connection with the
Defendant's allegations." We begin with the issue of
waiver.
1- Waiver and Standard of Review
The government's contention that Bankston's claim is
waived presents a threshold question as to which
version of Rule 12 applies in this case. HN8["¥] The
2013 version of Rule..12—which was in place when
Bankston was tried and filed this appeal—stated that "a
motion alleging a defect in the indictment" must be filed

David Doughten

Page 13 of 20
820 F,3d 215, *227; 2016 U.S. App. LEXIS 6763, **22; 2016 FED App. 0091P (6th Cir.), ***12
prior to trial, and that a failure to do so would result in a
waiver of that claim. Fed, R. Crim, P. 12(b)(3)(B). 12(e)
(2013). This old version of [***13] Rule 12. however,
also carved out an exception to the waiver rule stating
that "at any time while the case is pending, the court
may hear a claim that the indictment or information fails
to invoke the courts jurisdiction or to state an offense."
f^.dUij-^Crjm^_, J2£b)Q)jBJ (2013).5 By contrast, the
2014 version of [*228] Rule 12(b)—which took effect on
December 1, 2014, when this appeal was pending and
is still in force—eliminated the "failure to state an
offense"
exception,
while
modifying
the
consequences [**23] of failing to file a 12(b)(3) motion.
■See Fed. R. Crim. P. 12(b)(3)(B)(v) (2014). That is, the
current rule states that a failure to file a 12(b)(3) motion
prior to trial—including, a motion alleging a failure to
state an offense—is "untimely," but that a court may
nonetheless "consider [the objection] if the party shows
good cause." .Fed__JZ_Crim. P. 12(c)(3) (2014). The
government argues that the current version of the rule
applies and Bankston's claim is waived, or, alternatively,
even if the claim is not waived, it is subject to plain error
review because Bankston did not raise it in the district
court. Bankston argues that, under the applicable older
version of Rule 12, her claim is not only preserved but it
is subject to de novo review. We conclude that
Bankston has the better argument.
n
HN9\ir] The Supreme Court's order promulgating the
2014 amendments to the Federal Rules of Criminal
Procedure stated that the new rules "shall govern in all
proceedings in criminal cases thereafter commenced
and, insofar asjust and practicable, all proceedings then
pending." S. Ct. Order Amending Fed. R. Crim. P. at H 2
(Apr. 25, 2014) (emphasis added). The language in this
order parallels the language in the Rules Enabling Act,
which provides that "the Supreme Court shall not
require the application of such rule to further
___________________ _______
5 We acknowledge that we have inconsistently applied the
now-defunct 12(e) "waiver" provision. As we observed in
United States, v. Soto, 794 F3d 635, 649 (6th Cir.-2015). we
sometimes construed the party s failure to file a timely pretrial
motion as a "true waiver," other times construed it as forfeiture
and conducted plain error review, and yet other times avoided
"resolving the proper characterization" or examined "whether
the appellant had shown good cause for the failure." Id. at
649-50. Because we decide here that the earlier [**24]
version of Rule 12 applies, and under that version an
indictment fails to state an offense when it omits a facially
applicable statutory exemption, see infra, we do not comment
on whether Bankston's defective indictment claim would have
been subject to waiver under the current rule.

proceedings then pending to the extent that, in the
opinion of the court in which such proceedings are
pending, the application of such rule in such
proceedings would not be feasible or would work
injustice." 28 U.S.C. § 2074(a) (emphasis added),
Hence, the applicability of amended Rule 12 depends
on whether its retroactive application to cases pending
at the time of the amendment would be'just and [***14]
practicable," or, instead, [**25] would "work injustice" or
be "[injfeasible." In the latter circumstances, the old rule
governs. See Landgrafv. USI Film Prods, 511 U.S. 244,
_________________
______
275 n.29, 114 S. Ct. 1483.
128 L. Ed. 2d 229
(1994)
(HNIOlif] "Our orders approving amendments to
federal procedural rules reflect the commonsense notion
that the applicability of such provisions ordinarily
depends on the posture of the particular case."); see
also, e.g., Diaz v, Shalibetter, 984 F,2d 850, 853 (7th
Cir. 1993) (holding that the 'just and practicable"
exception means only that the amendments "may or
may not govern" in pending cases, and that it is not a
blanket "authorization for retroactive application"),
Here, we conclude that application of amended Rule 12
would "work injustice," since, HA/7 If?] under the
current rule, the failure to raise a defective indictment
claim in a pre-trial motion may result in a waiver of that
claim. See Fed....R. Crim. P. 12(b)(3)(B)(v) (2014).
Indeed, the situation here is much different from the few
cases in which we have applied amendments to the
Federal Rules retroactively. In United States v. Soto, we
applied the 2014 version of Rule 12 to pending
proceedings because both the amended rule and its
predecessor treated
the conduct at issue—a
defendant's [*229] failure to bring a pre-trial motion to
sever the claims—the same way, i.e., as a waiver. 794
F.3d 635, 648-50 & n.2 (6th Cir. 2015). If anything, the
amended rule favored the defendant in Soto because,
as explained [**26] above, it eliminated Rule 12(e)'s
reference to "waiver" and instead carved out a "good
cause" exception. Likewise, in Ridder v. City of
Springfield, we applied an amendment to the Federal
Rules of Civil Procedure retroactively in part because
the conduct that was subject to sanctions under the
amended rule continued even after the amendments
took effect. 109 F.3d 288, 296 (6th Cir. 1997). In the
case before us, the older version of Rule 12 was in
effect during Bankston's trial and when she filed this
appeal, and it contained a "failure to state an offense"
exception that could have—and we hold below did—
preserve Bankston's claim. To apply amended Rule 12
Bankston's claims would hence be unjust,
HA/72]+] Linder the 2013 version of Rule 12. we

David Doughten

Page 14 of 20
820 F.3d 215, *229; 2016 U.S. App. LEXIS 6763, **26; 2016 FED App. 0091P (6th Cir.), ***14
provide plenary review to a claim that the allegations of and (3) his statements were made in that proceeding."
the indictment fail to state an offense. See Fed, R. Crim. United States v. Vreeiand, 684 F.3d 653, 662 (6th Cir,
12(h)(3)(B); United States v. Gatewood. 173 F.3d 2012) (quoting United States v, McNeil, 362 F,3d 570,
983j._986J]_999} (holding that de novo review applies if 572j[9th_Cin_2004} (internal quotation marks omitted));
the claim that the defendant failed to raise under Rule see also United States v. Holmes, 840 F.2d 246, 248-49
IZIb). is a claim that contends that the indictment (4th Cir. 1988). Bankston's letter to the district judge
failfed] to establish jurisdiction or to charge an offense"), clearly satisfies all three elements of the exception. The
Hence, we review de novo Bankston's [***15] challenge fact that the indictment referenced Bankston's false
to count 23, mindful that where, as here, an indictment statements in matters "within the jurisdiction of the
is not challenged until appeal, "the indictment must be judicial and executive branches [*230] of the United
construed liberally in favor of its sufficiency." Id.
States" does not change the analysis. Even construing
the indictment liberally, see Gibson, 513 F.2d at 979.
2. Whether [**27] the Indictment Failed to State an
count 23 is explicitly and exclusively premised on the
Offense as to Count 23
letter that Bankston wrote to the judge, particularly her
allegations regarding the planting of evidence. It is of no
Bankston argues that the conduct alleged in count 23legal significance that the false statements in the letter
writing a letter to the district judge as part of a criminal
concerned the actions of the executive branch and thus
defense—was not a crime under 18 U.S.C. 6 1001
required investigation by the executive agencies.
because the statute expressly exempts from criminal Neither the statute nor our case law discussing the
liability statements made to a judge in the course of
[***16] judicial function exception takes into account the
judicial proceedings. See 18 U.S.C. $ 100Kb).6
effect of false statements. [**29] See Vreeiand. 684
wm
F.3d at 662. A contrary interpretation, moreover, would
HN14\T] The exemption, frequently referred to as a
render £_..1001(b) inapplicable to all adversarial
'judicial function exception," applies when the defendant
statements made by a criminal defendant that lead to an
shows: "(1) he was a party to a judicial proceeding, (2)
investigation by law enforcement.7
his statements were submitted to a judge or magistrate,

wem

6 HN13[t‘] Section 1001(a) sets forth the criminal prohibition,
while § 1001(b) provides for the statutory exemption. These
provisions state, in relevant parts:

To find that Bankston’s conduct is not a crime under §
1001 does not end our analysis, however, because
there is language in Vreeiand suggesting that the
judicial function exception may be an affirmative
defense that must be raised by a defendant. See

(a) Except as otherwise provided in this section, whoever,
in any matter within the jurisdiction of the executive,
legislative, or judicial branch of the Government of the
United States, knowingly and willfully-

7 Legislative history supports our conclusion that the effect of
false statements on an executive agency does not affect the
applicability of the judicial function exception. In codifying §
(1) falsifies, conceals, or covers up by any trick,
1001(b), Congress agreed with federal courts that had long
scheme, or device a material fact;
recognized that a judicial function exception is "necessary to
(2) makes any materially false, fictitious, or safeguard from the threat of prosecution statements made in
fraudulent statement or representation; or
the course of adversarial litigation." H.R. Rep. No. 104-680, at
4 (1996). The fear was that, without the judicial function
(3) makes or uses any false writing or document
exception, £.1007 would "chill vigorous advocacy, thereby
knowing the same to contain any materially false,
undermining the adversarial process." Id. Thus, in codifying
fictitious, or fraudulent statement or entry;
the judicial function exception, Congress drew a bright-line
shall be fined under this title, imprisoned not more rLJle distinguishing "the adjudicative and administrative
than 5 years
functions of the court." Id. at 9 (noting that "only those
representations made to a court when it is acting in its
(b) Subsection (a) does not apply to a party to a judicial administrative or 'housekeeping' capacity," such as
proceeding, or that party's counsel, for statements, "submissions related to bar membership," are within the scope
representations, writings or documents submitted [’*28]
of criminal prohibition). To consider the effect of false
by such party or counsel to a judge or magistrate in that statements as a disqualifying [’*30] factor—when those
proceeding.
statements would otherwise satisfy the judicial function
exception—would, therefore, restrict the scope of £ 1001(b)
18 U.S.C. £ 1001.
contrary to Congress's intent.
David Doughten

Page 15 of 20
820 F.3d 215, *230; 2016 U.S. App. LEXIS 6763, **30; 2016 FED App. 0091P (6th Cir.), ***16
Vreeland, 684 F.3d at 662 (stating that the defendant
must show" the three elements of the judicial function
exception under § 1001(b)). But the case before us is
appreciably different from Vreeland. In Vreeland and
cases like it, the defendant's conduct did not, on its face,
fall within the judicial function exception, and thus the
applicability of §_1(X)1(b} was in dispute. Indeed, in
Vreeland, we dealt with whether §_J00Jj(b} applied to
false statements made to a probation officer who was
assigned to the defendant during his term of supervised
release and who prepared the presentence investigation
report. We held that it did not because a probation
officer is more than a conduit between the defendant
and the judge when playing the role of an investigator,
and the statements directed at the officer were hence
not made in a 'judicial proceeding." [**31] 684 F,3d at
S64-65; see also United States v, Westberrv, 491 F.
Aqb* 364, 365-66 (4th Or. 2012) (per curiam); United
States v. Grace+.Jlge^Fed. Appx. 65, 65-66 (5th Cir.
2010} (per curiam); Manning, 526 F,3d at 618-20. But
see United States v, Horvath, 492 F.3d 1075, 1080-81
IMLCiL-2007) (holding that statements made to a
probation officer in the course of preparing a
presentence investigation report are protected under the
JLIBOIM exception). Similarly, in McNeil, 362 F.3d at
572—the Ninth Circuit case quoted in Vreeland—the
court addressed "whether the range of judicial activities
implied by [the judicial function exception] includes the
inquiry into a defendant's [***17] financial status for
purposes of appointing counsel" and ultimately
concluded that it did. In all these cases, there was a
dispute—between the parties and [*231] across
circuits—as to whether .5 1001(b) applied to the novel
factual circumstances at issue. By contrast, there is no
gray area or nuance in applying £ 1001(b) to Bankston's
conduct: writing a letter to a judge in the course of a
criminal defense is the quintessential conduct protected
from criminal liability.

claim alleging a failure to state an offense and,
therefore, is not waived under the old version of Rule
12M- Id.; see also Gatewood. 173 F.3d at 986 (noting
that, HNWlt} under Rule 12(b). "a defendant who
contends that the indictment fails to establish jurisdiction
or to charge an offense may raise that challenge at any
time"); United States.v. Harrod. 168 F.3d 887, 890 (6th
Cir. 1999) (holding that HN17\"¥] a claim that the
indictment failed to state an offense "can be raised for
[the] first time on appeal") (citing United_ States _v.
Forbes. 16 F.3d 1294. 1297 (1st Cir..7^)f7ir^ng
upon our discussion in Hubbard, we hold in this case
that HNWUt] where, as here, the underlying conduct is
so patently not a crime that it satisfies $ 7001(b) on its
face, the indictment fails to state an offense when it
charges a false statement crime while omitting the
judicial function exception.
Because count 23 is based on conduct that, on the face
of the relevant statutory exemption, does not constitute
a crime, we find that the indictment failed to state an
offense in count 23. We thus vacate Bankston's
conviction [**33] on count 23. See Gatewood, 173 F.3d
at 986 (holding that HN19\T] a reversal of conviction is
warranted, even without a showing of prejudice, where
"the indictment cannot within reason be construed to
charge a crime") (quoting United States v. Hart, 640
F.2d 856. 857-58 (6th Cir. 19810.
............
[***18] C. Due Process Errors Relating to Count 23
Bankston claims that the government's refusal to
dismiss count 23, the district judge's failure to recuse
himself despite being the recipient of her letter, and her
counsel’s failure to object to or move to dismiss count
23_eithef individually or collectively—created an "unfair
trial settin9" that violated her Fifth Amendment due
process rights.8 Specifically, she asserts [*232] that she

Rather than Vreeland, this case is more akin to United
States v. Hubbard, 16 F.3d 694, 697 (6th Cir. 1994).
8 The government does not respond to any of these
rev'd on other grounds, 514 U.S. 695, 115 S. Ct. 1754. arguments. Instead, the government argues only that
131 L. Ed. 2d 779 (1995). where we dealt with false Bankston cannot raise an ineffective assistance [**34] of
statements that a defendant had made in response to counsel claim because her decision to represent herself
pleadings and motions in a judicial proceeding. We "rendered [her counsel’s] actions beyond the scope of an
observed in Hubbard that HN1s(^t] the judicial function ineffective assistance challenge." The government is wrong,
exception is different from "a formalistic objection to a Bankston has a viable ineffective assistance claim because
defect in the indictment" because [**32] it "goes to the the conduct to which she objects—her counsel's failure to
heart of whether, as a matter of law, [the defendant] can move to dismiss count 23—occurred during the time when she
be convicted of the crime with which he was charged.” was represented by counsel, i.e., after the district judge
appointed trial counsel and before Bankston began
ld^JtL.698. We thus concluded—creating an apparent
representing herself at voir dire. See Wilson v. Parker. 515
conflict with Vreeland—that a claim that the judicial
F1M_682JjBJt8J6th_Cir__20Q8l (stating that, where the conduct
function exception applies to particular statements is a that gives rise to an ineffective assistance of counsel claim
David Doughten

\

1

Page 16 of 20
820 F,3d 215, *232; 2016 U.S, App. LEXIS 6763, **34; 2016 FED App. 0091P (6th Cir.), ***18
would not have testified at trial if she had not needed to
defend herself against the count 23 charge, and her
testimony opened the door to cross-examination in
which her prior convictions were revealed. She further
claims that the disclosure of her criminal background
"infected" the fairness of the entire trial, which warrants
vacating her convictions on all counts. We discuss each
claim of impropriety before considering the issue of
cumulative effect.
1. Prosecutorial Misconduct
HN20\-t] Because Bankston did not raise a
prosecutorial misconduct claim in the district court, we
review the prosecutor's conduct only for plain error. See
United Stales t/. Henry, 545 F.3d 367, 376 (6th Cir.
2008). As described above, Bankston must show that
the alleged error was not only plain, but that it affected
her substantial rights and implicated the fairness,
integrity, or reputation of the trial. See Johnson520
U.S. at 466-69.
We have already held that count 23 was improperly
charged, [**35] and that her conviction on that count
must thus be vacated. While Bankston also seeks to
invalidate her convictions on the other counts based on
alleged prosecutorial misconduct in pursuing the § WOl
charge, she cites no precedent supporting her
contention that the prosecutor's decision to pursue a
charge—however ill-conceived—can by itself constitute
a due process error, absent evidence of an improper
motive, inflammatory rhetoric, or other conduct
"tend[ing] to mislead the jury or [***19] prejudice the
defendant." Cristini v. McKee, 526 F.3d 888, 899 (6th
Cir. 2008) (quoting United States u. Carter. 236 F.3d
777, 783 (6th Cir. 2001)). Indeed, while the prosecutor's
pursuit of count 23 in light of a facially applicable
statutory exemption was "improper," we cannot
conclude here that such behavior was "flagrant," as
typically required by our case law. Cristini. 526 F.3d at
899; see United States v. Carroll, 26 F.3d 1380, 138586 (6th Cir. 1994) (holding that HN2lffi>] improper but
non-flagrant prosecutorial conduct requires a new trial if
"(1) proof of defendant's guilt is not overwhelming, and
(2) defense counsel objected, and (3) the trial court
failed to cure the error with an admonishment to the
jury.") (quoting United States v. Bess. 593 F.2d 749. 757
(6th Cir. 1979)).

occurs prior to waiver, "the logic . . . that exercising the Faretta
right to represent oneself necessarily eliminates claims of
ineffective assistance does not apply").

Moreover, Bankston has not shown the requisite
prejudice to warrant a new trial on the remaining twentytwo counts. See Carroll, 26 F.3d at 1385-86. Bankston
does not claim that the evidence on most of the other
counts was [**361 insufficient to support the jury's
verdicts, and our review of the record persuades us that
the jury heard ample evidence of her guilt. See, e.g.,
infra Section II.D (rejecting sufficiency-of-the-evidence
claim concerning counts 16 and 18). Additionally, the
district court gave a limiting instruction about her prior
convictions, remarking to the jury:
Let me interrupt and say that the fact that the
defendant has these prior convictions is not any
proof whatsoever that she's committed the crimes
that are alleged in the third superseding indictment.
That testimony is admissible, so you may consider
it with respect to her credibility. That's the purpose
for the court admitting the testimony to come in.
You may consider the fact of a prior conviction as it
relates to your determination as to her credibility,
but it is—the fact of the prior convictions, the fact of
being in prison is no proof that she's committed any
of the crimes that are alleged in the superseding
indictment—third superseding indictment.
In short, Bankston's claim of prosecutorial misconduct
fails because she has not [*233] shown any of the
requisite elements for establishing a due process
error—that the proof of her guilt was [**37] not
overwhelming; that she objected to the improper
conduct, and that the court failed to cure the error with
an admonishment to the jury. See Carroll. 26 F.3d at
1390. Accordingly, we reject Bankston's claim that she
is entitled to a new trial based on prosecutorial
misconduct.
[***20] 2. Judicial Bias
-?ifr5
Bankston's judicial bias claim is also unpreserved and jj>.
hence is subject to plain error review. See United States
Hynes, 467 F.3d 951. 957-58 (6th Cir. 2006) (HN22\
•f"] "[Wjhere the defendant does not contemporaneously
object to the trial court's conduct, we review that J
conduct under the plain-error standard."). The claim
would be unavailing under any standard, however.
While Bankston argues that the trial judge should have
recused himself because he was the "victim" of the false
statement crime, she fails to explain how the one
remark by the judge on which she relies—"where is the
evidence that she submitted the handwritten letter to
me?"—reflects bias. Indeed, contrary to Bankston's
contention, the district judge suggested dismissing
count 23. The government declined, stating, "you can't

David Doughten

1

Page 17 of 20
820 F.3d 215, *233; 2016 U.S. App. LEXIS 6763, **37; 2016 FED App. 0091P (6th Cir.), ***20
lie to a court. I'm not going to allow that to occur." In the
end, there is no indication in the record that the judge
exhibited a "high degree of favoritism or antagonism"
necessary to support judicial [**38] bias. Litekv v. United
States, 510 U.S. 540, 555, 114 S. Ct. 1147. 127 L. Ed.
2d 474 (1994k see also id. at 551 (stating that HN23\"t}
a judge's conduct may be "characterized as 'bias' or
'prejudice'" warranting recusal only if "it is so extreme as
to display clear inability to render fair judgment"); Lyell v.
Renico, 470 F.3d 1177. 1187 (6th Cir. 2006) (holding
that a recusal was warranted where the trial judge "took
over the cross-examination of the central witness in the
case . . . and elicited information not revealed on direct
examination" and "chose to limit questioning [of the
witness] on her own" absent objection from the
prosecutor). Thus, we reject Bankston's claim of judicial
bias.
*
3. Ineffective Assistance of Counsel
Bankston asserts that her court-appointed attorney
provided ineffective assistance in failing to object to and
move to dismiss count 23 during the period in which the
attorney represented Bankston. HN24Ut\ While we do
not typically consider ineffective assistance of counsel
claims on direct appeal, we depart from that practice
where "the existing record is adequate to assess
■ properly the merits of the claim." Hynes, 467 F. 3d at 969
(quoting United States v. Franklin, 415 F.3d 537. 555-56
(6th Cir. 2005)). Here, we find that the record is
adequate and hence review Bankston's claim de novo.
See Mallett v. United States. 334 F.3d 491, 497 (6th Cir.
2003) (HN25\W\ "Ineffective assistance of counsel
claims are mixed questions of law and fact, which we
review de novo on appeal."). [**39]
[***21] HN2&+] Under Strickland v. Washington, 466
U.S. 668, 687-94. 104 S. Ct. 2052. 80 L. Ed. 2d 674
(1984), a defendant must satisfy a two-pronged
standard to demonstrate ineffective assistance of
counsel. First, the defendant must show that counsel's
performance was "deficient," i.e., that it "fell below an
objective standard of reasonableness." Id. at 687-88.
Second, the defendant must show that the deficient
performance by counsel was prejudicial to the defense.
Id. This showing of prejudice requires "a reasonable
probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been different."
Id. at 694.: accord Ravner v. Mills, 685 F.3d 631, 636
(6th Cir. 2012).
..............~
[*234] Trial counsel's failure to object to or move to
dismiss count 23 satisfies the performance prong of
Strickland. See Magana v. Hofbauer, 263 F.3d 542, 550

(6th Cir. 2001) (holding that HN27V¥) counsel's
"complete ignorance of the relevant law under which his
client was charged" fell below the objective standard of
reasonableness); Washington v. Hofbauer, 228 F.3d
689, 702 (6th Cir. 2000) (finding that H/V2Sf?1 counsel's
failure to object to prosecutorial misconduct may
constitute a deficient performance where the "failure is
due to . . . lack of knowledge of controlling law, rather
than reasonable trial strategy"). We also find prejudice
as to count 23 because there is a reasonable probability
that, had Bankston's counsel objected to count 23, the
charge would have been dismissed. [**40]
See
Strickland, 466 U.S. at 694 (stating that HN29\1F] a
reasonable probability is "a probability sufficient to
undermine confidence in the outcome"). This prejudice,
however, has been addressed by our conclusion that
her conviction on count 23 must be stricken based on
the indictment’s failure to state an offense. In other
words, any remedy for ineffective assistance of counsel
regarding count 23 is mooted by the remedy we have
already afforded on an alternative basis.
While Bankston makes passing references to broader
prejudice to her convictions on other counts resulting
from the revelation at trial of her prior convictions, she
does not develop this argument fully. Hence, the claim
is waived. See United States v. Sandridae, 385 F.3d
1032, 7035-36 (6th Cir...2004) (HNSOUt] "Issues
adverted to in a perfunctory manner, unaccompanied by
some effort at developed argumentation, are deemed
waived.") (quoting Popovich v. Cuyahoga Cntv. Ct. of
Common Pleas, 276 F.3d 808. 823 (6th Cir. 2002)):
McPherson v. Kelsey, 125 F,3d 989, 995-96 (6th Cir.
1997) ("FfA/37fdH It is not sufficient for a party to
mention a possible argument in the most skeletal way,
leaving the court to . . . put flesh on its bones.") (quoting
Citizens Awareness [’"22] Network, Inc, v..U.S.
Nuclear Rea...Comm'n,..59..F3d..284,..293-94 (1st Cir.
1995)). We add, moreover, that even if we were to
address the claim of broader prejudice, we would find
no such prejudice for the reasons stated supra, Section
II.C.1—namely, that the jury otherwise heard ample
evidence of [**41] her guilt and the court gave a limiting
instruction.
4. Cumulative Effect
Bankston argues that, even if each asserted impropriety
relating to her count 23 conviction does not on its own
result in denial of her constitutional right to a fair trial,
the cumulative effect of the errors created an unfair trial
setting that violated her due process rights. HN32\it\
The existence of only one error, however, eliminates the

David Doughten

Page 18 of 20
820 F,3d 215, *234; 2016 U.S. App. LEXIS 6763, **41; 2016 FED App. 0091P (6th Cir.), ***22
foundation of her cumulative-effect theory. Indeed, our
recognition of the cumulative-effect theory has been
limited to situations where "[ejrrors that might not be so
prejudicial as to amount to a deprivation of due process
when considered alone, may cumulatively produce a
trial setting that is fundamentally unfair." United States
y, Hernandez, 227 F.3d 686. 697..(6th Cir. 2000)
(quoting Walker v. Engle. 703 F.2d 959, 963.(6th Cir.
1983)). Here, we conclude that there is no prosecutorial
misconduct or judicial bias, not that any error committed
by the prosecutor or the judge was harmless. See
United States v. Trujillo. 376 F.3d 593, 614 (6th Cir.
2004) (holding that, HN33\'t11 to establish cumulative
error, defendant must show that "the combined effect of
individually harmless errors was so prejudicial as to
render his trial fundamentally unfair"). In short,
Bankston’s cumulative effect argument fails because
there is no cumulation of errors. See, e.g., B'aze v.
Parker, 371 F.3d 310, 330 (6th Cir. 2004) (denying a
due [**42] process claim based on the [’235]
cumulative effect argument because the defendant
"cannot establish any errors to cumulate").
D. Insufficiency of Evidence as to Count 16 Wire
Fraud and Count 18 Mail Fraud

doing [**43] so, connected to the Lending Club server
physically located in Las Vegas, Nevada. Bankston
contends that the government failed to prove that the
server was in fact located in Las Vegas or, alternatively,
that it was located in any specific place outside Ohio, >.
The record belies Bankston's contention. Eric Kinney,
from Lending Club's Fraud Operations, testified that,
while he could not be certain as to which, the server
could have been located in "Nevada, California, Santa
Clara" at the time that Bankston filled out the loan
application. By contrast, there was no evidence
suggesting that the server could have been in Ohio. The
government was not obliged to prove the actual location
of the Lending Club server, only that Bankston's
transaction involved the use of an interstate wire.. See
Gambill v. United States, 276 F.2d 180, 181 (6th Cir.
i960) (holding that HN36\1r] the government "need not
prove everything in an indictment but only so much
thereof as establishes a violation of the statute").
Viewing the testimony in the light most favorable to the
prosecution, we conclude that sufficient evidence
supported the jury's finding that the government proved
the interstate wire element of count 16.
2. Count 18 Mail Fraud

Bankston argues that the record is insufficient to support
the jury's findings of guilt on count 16, alleging wire
fraud, and count 18, alleging mail fraud, because the
government failed to prove the use of an interstate wire
communication or the mails. HN34it] We review
sufficiency of the evidence de novo, affirming the
defendant’s convictions if, "after viewing the evidence in
the light most favorable to the prosecution, any rational
trier of fact could have found the essential elements of
the crime beyond a reasonable doubt." United States v.
Cunningham, 679 F.3d 355, 369 (6th Cir. 2012) [***23]
(quoting Jackson v, Virginia. 443 U.S. 307. 319. 99 S.
QL.278J,_6J L__Fid. ,?d_560, (1979)). We must draw "all
available inferences and resolve all issues of credibility
in favor of the jury's verdict." United States v. Smith, 749
F.3d 465, 477 (6th Cir. 2014) (quoting United States v.
Salgado, 250 F.3d 438, 446 (6th Cir. 200O).
1. Count 16 Wire Fraud
HN35[Jt] To prove wire fraud under 18 U.S.C. 8 1343,
the government must show, inter alia, that the defendant
"used or caused to be used an interstate wire
communication in furtherance of the scheme."
Cunningham, 679 F.3d at 370.(The indictment stated
that Bankston filled out the Lending Club loan
application online from her home in Ohio and, in

Bankston's argument regarding count 18 [**44] fails for
similar reasons. HN37\“f\ Mail fraud, as specified in 78
U.S.C. § 1341. requires a showing, inter alia, that the
defendant's conduct involved "a use of the mails."
United States v. Crosslev, 224 F.3d 847, 857 (6th Cir.
2000). While Bankston argues that the government
failed to show the use of the mails element [***24]
(particularly that the Citizens Bank credit card was
mailed in the first place), witness testimony at trial
suggests otherwise. Bankston's co-conspirator Hale
testified that she "knew" that the Citizens Bank credit
card "ended up" with Bankston, and that she was
familiar with
Bankston's
practice of receiving
"documents in the mail such as debit cards," which were
directed to individuals whose identities she had
obtained, including that of Rachelle Butler. Butler—the
victim of Bankston's identity [*236] theft—also testified
as to the bank statements from Citizens Bank
documenting the use of the credit card, which appeared
to have been mailed to Butler, but which she did not
receive seemingly due to the mail hold that Bankston
had placed on her address. Based on these testimonies,
we cannot conclude that no rational juror could have
found the use of the mails beyond a reasonable doubt,
E. Sentencing

David Doughten

4k

Page 19 of 20
820 F.3d 215, *236; 2016 U.S. App. LEXIS 6763, **44; 2016 FED App. 0091P (6th Cir.), ***24

j

Bankston argues that the district court committed
multiple errors [**45]
in sentencing that require
resentencing on all but the aggravated identity theft
counts (counts 6, 8, 19, and 22).9 Specifically, Bankston
contends that the district court (i) incorrectly used a
base offense level ("BOL") of 27 when it had previously
determined the correct level to be 25, (ii) departed from
the recommended criminal history category ("CHC")
without an adequate explanation, and (iii) failed to rule
on the disputed loss amounts from Bankston's
fraudulent schemes. The government concedes that the
district judge erred in using a BOL of 27 and agrees that
the case should be remanded for resentencing on all
non-aggravated identity theft counts. The government
does not address the other alleged sentencing errors.
It is clear, based on the record and the parties'
agreement on the issue, that the district judge
erroneously used a BOL of 27 when it had earlier ruled
that the level should be 25. Compare R. 254:
Sentencing Hr'g Tr. at 4842-43 (the district judge
remarking, "so I get an adjusted offense level of 25")
with id. at 4844-45 (the judge remarking, without an
explanation, [***25] that ”[t]he offense level has been
fixed at 27"). This error, alone, warrants remanding the
case for resentencing on all but the aggravated identity
theft counts.
We also address, however, the two additional errors
raised by Bankston because they are relevant to the
proceedings on remand. Her argument that the district
court failed to explain its departure from the
recommended CHC appears not to have been raised in
the district court and is thus subject to plain error review.
See United States v. Mabee, 765 F.3d 666, 671 (6th Cir.
2014). We have held that HN39^h] "[a] court departing
upward from a defendant's calculated [CHC]" must
"’articulate its reasons for departing from the guidelines
in language relating to the guidelines.'" United States v.
Schultz, 14 F.3d 1093. 1101 (6th Cir. 1994) (quoting
United States v. Kennedy, 893 F.2d 825, 829 (6th Cir.
1990)). Here, the district judge departed from the

wrm

9 HN381+] Aggravated identity theft convictions are treated
separately for sentencing purposes, with each conviction
supporting a mandatory two-year sentence that has to be
served consecutively with the sentence imposed for other
crimes. See 18 U.S.C. § 1028A(b)(2). Where, as here, the
defendant is convicted of more than one aggravated identity
theft charges, the sentences for all aggravated identity theft
convictions may, in the discretion of the sentencing court, run
concurrently with each other. [**46] See id. § 1028A(b)(4).

calculated CHC of V to VI without providing any
explanation. Simply stating that the court "grants the
motion [**47] and affixes the criminal history category as
VI"—without specifying the reasons "in language
relating to the guidelines," Schultz, 14 F.3d at 1101—is
not sufficient.
HN40\4H Bankston's claim that the district court failed to
resolve the dispute over the loss amounts is preserved,
and we review it de novo. See United States v. Triana.
^S_Ei3d_308J_32T_J6th_Cir1_2006}. Bankston points to
three separate loss amounts—one concerning the Ohio
Department of Jobs and Family Services ("ODJFS"),
another concerning Wells Fargo, and another one
concerning the Dollar [*237] Bank. HN41l¥] Federal
Rule of Criminal Procedure 32(i)(3)(B) states that a
sentencing court "must—for any disputed portion of the
presentence report or other controverted matter—rule
on the dispute or determine that a ruling is unnecessary
either because the matter will not affect sentencing, or
because the court will not consider the matter in
sentencing." We have required "literal compliance" with
this rule. United States v. Nelson. 356 F.3d 719. 722-23
(6th Cir. 2004} (citing United States v. Monus, 128 F.3d
376, 396 (6th Cir. 1997)). Hence, while the district court
"need not establish the value of the loss with precision,"
the court must "publish the resolution of contested
factual matters that formed the basis of the calculation."
Id. at 723. A mere expression of an agreement with the
government's
proposed
loss
amount—without
"explain[ing] how [the court] calculated the amount of
loss and . . . respond[ing] to the defendant's [**48]
'specific factual objections to the methods of
calculation'"—does not suffice. Id. (quoting. Monus, 128
F.3d at 396-97).
[***26] Here, the district court determined that a dispute
on the Dollar Bank loss amount does not affect
sentencing. It is not apparent from the record whether
the court ruled on the disputed loss amounts of ODJFS
and Wells Fargo. When the government explained the
fraudulent scheme that resulted in ODJFS’s loss, the
district court merely asked that the loss be
"demonstrated by some particular exhibit," but did not
specifically find that the government's loss amount was
correct or explain how the court arrived at that amount.
Similarly, we are unable to discern from the record—
especially in light of the government's failure to rebut
Bankston's claim in its brief—any explanation from the
district court about why Wells Fargo's loss was not
inflated, contrary to Bankston's claim. Accordingly, in
remanding the case for resentencing, we instruct the
district court to provide an explanation for any upward

David Doughten

1

I
Page 20 of 20
820 F,3d 215, *237; 2016 U.S. App. LEXIS 6763, **48; 2016 FED App. 0091P (6th Cir.), ***26
departure in the CHC and resolve the remaining factual
disputes regarding the loss amounts.10
III.
For the foregoing reasons, we VACATE Bankston's
conviction on count 23, AFFIRM her other convictions,
and REMAND the case for resentencing.

End of Document

-V

10 We decline to address whether the district court incorrectly
calculated the loss amounts. Bankston will have [**49] an
opportunity to make this argument to the district court on
remand. We also decline to address whether the district
judge’s remark—that he has "32 months of discretion" within
the 130-to-162-months guideline range—reflects his mistaken
understanding that the guidelines sentencing range is binding.
To the extent that the judge's remark suggests anything more
than inartful phrasing, the district court on remand should treat
the guidelines as advisory in accordance with United States v.
Booker, 543 U.S. 220, 266-67, 125 S. Ct. 738..160 L. Ed. 2d
621 (2005).
David Doughten

(2 of 2)

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: May 13, 2020

Angelique Bankston
Unit 2 - Cottage 26
P.O. Box A
Alderson, WV 24910-0000
Re: Case No. 19-3959, Angelique Bankston v. USA
Originating Case No.: l:19-cv-01228: l:13-cr-00166-1
Dear Mr. Bankston,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Beverly L. Harris
En Banc Coordinator
Direct Dial No. 513-564-7077
cc: Mr. Mark S. Bennett
Ms. Laurel Gift
Enclosure

/X$>zub rx Jv A

\

\

\
\

(1 of 2)
No. 19-3959
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ANGELIQUE BANKSTON,

)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

V

FILED
May 13, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: COLE, Chief Judge; GUY and BUSH, Circuit Judges.
Angelique Bankston, a federal prisoner, petitions the court to rehear en banc its order
denying her a certificate of appealability. The petition has been referred to this panel, on which
the original deciding judge does not sit, for an initial determination on the merits of the petition for
rehearing. Upon careful consideration, the panel concludes that the original deciding judge did
not misapprehend or overlook any point of law or fact in issuing the order and, accordingly,
declines to rehear the matter. Fed. R. Add. P. 40(aL
The Clerk shall now refer the matter to all of the active members of the court for further
proceedings on the suggestion for en banc rehearing.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S.'Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: May 28, 2020

Angelique Bankston
FPC Alderson
Glen Ray Road, Box A
Alderson, WV 24910
Re: Case No. 19-3959, Angelique Bankston v. USA
Originating Case No.: l:19-cv-01228: l:13-cr-00166-l
Dear Ms. Bankston,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Beverly L. Harris
En Banc Coordinator
Direct Dial No. 513-564-7077
cc: Mr. Mark S. Bennett
Ms. Laurel Gift
Enclosure

w

1
No. 19-3959

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

ANGELIQUE BANKSTON,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)
)

FILED
May 28, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: COLE, Chief Judge; GUY and BUSH, Circuit Judges.

Angelique Bankston petitions for rehearing en banc of this court’s order entered on
February 14, 2020, denying, her application for a certificate of appealability. The petition was
initially referred to this panel, on which the original deciding judge does not sit. After review of
the petition, this panel issued an order announcing its conclusion that the original application was
properly denied. The petition was then circulated to all active members of the court, none of
whom requested a vote on the suggestion for an en banc rehearing. Pursuant to established
court procedures, the panel now denies the petition for rehearing en banc.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

V
Case: l:13-cr-00166-DCN Doc #: 316 Filed: 05/31/19 lot2. PagelD #: 5258

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
EASTERN DIVISION

ANGELIQUE BANKSTON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

)

CASE NO.

1:13 CR 166-1
1:19 CV 1228

)
)
)

)

JUDGE DONALD C. NUGENT

)
)
)

)

\

ORDER

A motion to vacate, set aside, or correct sentence has been filed with the Court pursuant to
28 U.S.C. § 2255. The Court, having examined the motion in accordance with Rule 4 of the Rules
Governing Section 2255 Proceedings, cannot determine from the face of the petition that movant
is not entitled to relief. THEREFORE,
(1) Respondent shall file an answer to the motion within twenty
(20) days from the date of this Order. The answer shall comply
with Rule 5 of the Rules Governing Section 2255 Proceedings.
(2) Movant shall have thirty (30) days from the filing of
Respondent’s answer to respond thereto.
Briefs filed by the parties shall contain a summary of the facts upon which they rely and
shall, where applicable, make specific reference to those portions of the record upon which they

a

)

J
■*

/•

Case: l:13-cr-00166-DCN Doc #: 316 Filed: 05/31/19 2 of 2. PagelD#:5259

rely (page or exhibit number). Briefs shall also contain statements of the applicable law and
citations to relevant case and statutory authority.
IT IS SO ORDERED.

'

/s/Donald C. Nugent_____
DONALD C. NUGENT
United States District Judge1

DATE: Mav 3L 2019

*

- r

-2-

A

«

*1

Case: l:13-cr-00166-DCN Doc #: 312-2 Filed: 05/29/19 3 of 3, PagelD #: 5174
From: AT&T TX93-22

813653

•V*

.c

THE STATE Of OHtO

Page: 3/8

grand jury subpoena

•■sasss

(Cardinal Rule 17)
PRECIPE

—

Cuyahoga Cotuity

h*

Date: 2/13/2012 9:15:21 AM

Case Number
To the Sheriff ofCuyahoga County;
Ton are hereby cooumnded to <aimmr»v
AT & T INTERNET SERVICES
1010 N SAINTMARYS ST RM315-A2
ATTN: LEGAL COMPLIANCE DEPT
SAN ANTONIO, 1X78215-2109

N
*, ‘k

^DEFEND,\NT;

' t

t*.

SflCt

BSVf
. 'V'1SS18I
/vail
t?.

•*-%3

!iSSES~S=»#:l
- .* Ji

wBw-M

iff

Jgi
«ta» %ia>s».-oW|»V' |i

tothewitnpAq

■PMS

■■ ••»

^7

ouitty, on the 17th day ofEebmas^Mv®.?'1;-' #
2012, at 09t00 o diocltAJW., to testify before die GRAND JURY to ah
andsinguJai-snchaiattersaMthings which yoaaia^^^^^'l • (■
icercam aonoa ra-court pending, ansd tom and there to be determined.

-

-apfe-j

^rrNEl\QERfL? ^
Cl2* court or Common
Pjeas, and the seal of satd Conn, as Cleveland, Ohio, this
1st day of February, A.D. 2012.

£

GERALD E KfEftST, Clerk

■ ■rmm
mmk
*

■

.

" £~

by

' $

r

if you aro a Victim of a'yiobnt crime and have
bean injured, you may tfuaBfy for axnpersaUort

„ .

The within nanaddhs, hw bw discharged and M app9aro« tm fofowH^a: V

_!_____ total__________ _________
PROSECUTOR ANO/Ofi BAILIFF

1-300-824.3.263 for furfcor information or contact

FUeo

the Cuyahoga County Vyrtncja Victim Program

- ' itel-'i

WITNESS CERTIFICATION

under theONoVidimsisfCrima Program, Call

at 443-73S9.

IMS
m

3*3

NOTICE TO VICTIMS OF CRIME

'In

' *< l}*

■

J.£. • I

'•

\I

I

-mWi' i

By

~-.SK

TO THE WITNESS; BRING THIS COPY OF THE SUBPOENA WITH YOU

to me CterVs office - SECOND LfSIl. y

*

voga!l3r- Take (Ws completed c*rSfc*

if

-Sfel
■

■

v'i

■ WMci

CWSN6C60

THTCiI

P.Ptl

This fax was received by GFI VAXmaker fax server. For more information, visit http://vvww.gfi.corn

IV-' ^"|b

A

